SEMIANNUAL
REPORT TO CONGRESS
OCTOBER 1, 2012 TO MARCH 31, 2013
EXPORT-IMPORT BANK OF THE UNITED STATES (Ex-Im Bank) is the official export credit
agency of the United States. Ex-Im Bank supports the financing of U.S. goods and services in
international markets, turning export opportunities into actual sales that help U.S. companies
of all sizes to create and maintain jobs in the United States.


Ex-Im Bank assumes the credit and country risks that the private sector is unable or unwilling
to accept. Ex-Im Bank also helps U.S. exporters remain competitive by countering the export
financing provided by foreign governments on behalf of foreign companies. More than 80
percent of Ex-Im Bank’s transactions have been made available for the direct benefit of U.S.
small businesses in recent years.


More information about Ex-Im Bank is at www.exim.gov.


THE OFFICE OF INSPECTOR GENERAL (OIG), an independent office within Ex-Im Bank,
was statutorily created in 2002 and organized in 2007. The mission of Ex-Im Bank OIG is to
conduct and supervise audits, investigations, inspections and evaluations related to agency
programs and operations; provide leadership and coordination as well as recommend policies
that will promote economy, efficiency, and effectiveness in such programs and operations;
and prevent and detect fraud, waste, abuse and mismanagement.


The OIG is dedicated to acting as an agent of positive change to help Ex-Im Bank improve its
efficiency and effectiveness. It keeps Ex-Im Bank’s Chairman and President and Congress fully
informed about problems and deficiencies along with any positive developments relating to
Ex-Im Bank administration and operations.


More information about the OIG including reports of audits and evaluations is at
www.exim.gov/oig.


Information about inspectors general in the U.S. government is at www.ignet.gov.
Contents
	 3	 From the Inspector General

	5	Highlights

	 9 	 Initiatives

	 9 	 International collaboration

	 9 	 Council of Inspectors General on Integrity and Efficiency

	 9 	 Review of legislation and regulations

	 13 	 Ex-Im Bank management challenges

	19	 Audits

	20	 Summary

	 20	 Reports issued

	 26 	 Ongoing audits

	 27	 Response to Bicameral Task Force on Climate Change

	 32 	 Government Accountability Office

	 35 	 Inspections and Evaluations

	36	 Summary

	 37 	 Interagency cooperation and interaction

	 41 	 Investigations

	 42 	 Summary

	44	 Investigations

	 50	 Other Investigative Results

	 53 	 Hotline activity

	 55 	 Appendix A Recommendations from prior reporting periods

	 57 	 Appendix B Peer review reporting

	 59 	 Appendix C Abbreviations and acronyms

	 61 	 Appendix D Inspector General Act reporting requirements

	 63	 Appendix E Florida business paper notes impact of Ex-Im Bank OIG




                                                                    Office of Inspector General | Export-Import Bank of the United States   1
From the Inspector General
We are pleased to report our last six months’ work. Our office continues to enhance the viability,
soundness, and effectiveness of the Export-Import Bank of the U.S. (Ex-Im Bank) as an institution
and lender of last resort. Specifically, during the reporting period, the Government Accountability
Office (GAO) issued a congressionally requested report focusing on Ex-Im Bank’s risk management
practices (see page 31 in this report for more details). The GAO report complements and supple-
ments the work completed by our office in the last reporting period (see our evaluation of
Ex-Im Bank’s loss reserve allocation policies and risk mitigation practices issued on September 28,
2012; www.exim.gov/oig/upload/Final-20Report-20Complete-20Portfolio-20Risk-20120928-1.pdf).
Ex-Im Bank’s significant asset growth in the past several years, the challenging economic environ-
ment, changes in the composition of its product portfolio, and Congressional interest led us to
address these practices. In summary, both reports reached similar conclusions and identified similar risks.


During this reporting period, our office issued a number of mandatory audits including Ex-Im Bank’s
Financial Statement audit, the Federal Information Security Management Act audit, and the Improper
Payments Elimination and Recovery Act audit. These audits help Ex-Im Bank improve its operational
performance and responsibilities under federal law. The Financial Statement audit identified
deficiencies totaling approximately $55 million related to Ex-Im Bank’s internal control over financial
reporting. Also, we responded to a congressional request to assess whether Ex-Im Bank is doing
everything it can to confront the growing threat of climate change.


In addition, our office continued its focus on investigating fraud related to Ex-Im Bank transactions
and strengthening its ability to investigate and prosecute export fraud globally. Specifically, on
January 25, 2013, Manuel Ernesto Ortiz-Barraza, an independent financial consultant, was extradited
to the United States for his alleged role in a scheme to defraud Ex-Im Bank of more than $2.5 million.
This is a major accomplishment for our office since it marks the first extradition of an Ex-Im Bank
transaction participant accused of committing fraud against Ex-Im Bank. Moreover, during this
reporting period, the OIG further strengthened its investigative capabilities and investigative
support by entering into a Memorandum of Understanding with the International Criminal
Police Organization (INTERPOL), an inter-governmental organization, facilitating international
police cooperation.


Finally, during the reporting period, our office obtained five criminal judgments resulting in 80
months’ imprisonment, 180 months’ probation, and $2,379,577 in criminal restitution, forfeiture,
and special assessments.


All of these accomplishments would not be possible without the hard work, professionalism, and
dedication of our excellent staff.




OSVALDO L. GRATACÓS




                                                                          Office of Inspector General | Export-Import Bank of the United States   3
Highlights
The Office of Audits (OA) completed three audits during the six months ending
March 31, 2013:
1  Audit of Export-Import Bank’s financial statements for FY 2012
  An independent public accountant (IPA), working under the Office of Inspector
  General (OIG) supervision, conducted an audit of Ex-Im Bank’s financial statements
  for fiscal year 2012. The IPA issued an unqualified opinion on Ex-Im Bank’s financial
  statements. The IPA did not find any reportable noncompliance with laws and
  regulations and did not identify any deficiencies in internal control considered to be                    At a glance
  material weaknesses. However, during the audit, the IPA and Ex-Im Bank management                         •    Financial statements
  noted deficiencies totaling approximately $55 million related to Ex-Im Bank’s internal                    •    Improper payments reporting
  control over financial reporting. Specifically, the audit found that:                                     •    Information security
  •    Updated risk ratings relied on inaccurate information.                                               •    Climate change
  •    There were inconsistencies in risk ratings between key systems.                                      •    Investigations
  •    There were inaccurate guarantee repayment schedules.
  •    Inaccurate information was used for the subsidy calculation.
  •    There was an incorrect loan accrual status.
  •    There was an incorrect allowance for loan loss journal entry.
  •    An incorrect formula was used in the loss given default calculation.
  •    There was a lack of retention of daily security monitoring reports.


2  Improper Payments Reporting—Ex-Im Bank generally complied with improper
  payments reporting requirements but should improve its improper payments
  assessment
  In accordance with the Improper Payments Information Act of 2002 (IPIA), as amended
  by the Improper Payments Elimination and Recovery Act of 2010 (IPERA), Inspectors
  General are required to annually review their agency’s compliance with improper
  payments legislation and evaluate agency efforts to assess, report, and reduce improper
  payments. As a result, we reviewed the Export-Import Bank’s improper payments
  assessment and reporting activities for FY 2011.


  We determined that Ex-Im Bank complied with IPIA, as amended by IPERA, in that it
  reported all required information based on the results of its FY 2011 improper payments
  assessment. In addition, Ex-Im Bank has established a number of preventive and
  detective controls and due diligence requirements intended to minimize the possibility of
  improper payments. However, we identified some concerns which we believe reduce the
  overall usefulness and reliability of Ex-Im Bank’s improper payments assessment.




                                                                   Office of Inspector General | Export-Import Bank of the United States       5
                 Highlights


                                        The audit made five recommendations for corrective action. Management generally
                                        concurred with the recommendations, which will be closed upon completion and
                                        verification of the proposed actions.


                                    3  FY 2012 Information security program and practices audit
                                        The Federal Information Security Management Act of 2002 (FISMA) requires agencies
                                        to develop, document, and implement agency-wide information security programs to
                                        protect their information and information systems. FISMA also requires agencies to under-
                                        go an annual independent evaluation of their information security programs and practices,
                                        as well as an assessment of their compliance with FISMA. To fulfill its FISMA responsibilities,
                                        the OIG contracted with an IPA for an independent evaluation of Ex-Im Bank’s information
                                        security program and practices and its overall compliance with FISMA requirements.


                                        The audit found that, overall, Ex-Im Bank continues to improve and strengthen its informa-
                                        tion security program and is addressing the challenges in each of the areas that the Office
                                        of Management and Budget identified for the FY 2012 FISMA review. However, Ex-Im Bank
                                        is not compliant with all FISMA requirements. The audit made three recommendations
                                        for corrective action. Management concurred with the recommendations, which will be
                                        closed upon completion and verification of the proposed actions.


                                    In addition, OA compiled and evaluated information in response to a request from the
                                    Bicameral Task Force on Climate Change to assess whether Ex-Im Bank is doing everything
                                    it can to confront the growing threat of climate change. OA determined that, with respect
                                    to its business operations, Ex-Im Bank is taking steps to address requirements for improving
                                    energy efficiency. However, given the significant increase in Ex-Im Bank’s authorizations
                                    and the need for international air travel to support Ex-Im Bank’s mission of expanding U.S.
                                    exports and developing new foreign buyers of U.S. goods and services, management’s
                                    efforts to reduce greenhouse gases related to air travel and other business-related
                                    activities will continue to be a challenge. Also, although Ex-Im Bank’s increased support
                                    for environmentally-beneficial U.S. exports has shown an overall positive trend, Ex-Im Bank
                                    has struggled to balance the need to support American jobs and energy exports, while
                                    simultaneously encouraging development of renewable energy facilities, as illustrated by
                                    Ex-Im Bank’s financing of coal-fired power plants. In sum, OA reported that Ex-Im Bank is
                                    striving to meet requirements and address existing GAO recommendations for improving its
                                    performance. As a result, the OIG did not make additional recommendations for improving
                                    Ex-Im Bank’s performance.




6   Office of Inspector General | Export-Import Bank of the United States
At the end of the reporting period, OA had two audits in progress:
   •    Audit of Export-Import Bank’s implementation of content policy
   •    Audit of Export-Import Bank’s direct loan program


The Office of Inspections and Evaluations addressed outstanding recommendations
from the Portfolio Risk and Loss Reserve Allocation Policies Report dated September 28,
2012 (www.exim.gov/oig/upload/Final-20Report-20Complete-20Portfolio-20Risk-20120928-1.
pdf) and commenced two initiatives:
   •    Evaluation of Ex-Im Bank economic impact procedures
   •    Transaction inspections


The Office of Investigations accomplished the following actions:
   •    Obtained five criminal judgments resulting in 80 months imprisonment, 180 months’
        probation, and $2,379,577 in criminal restitution, forfeiture, and special assessments.
   •    Obtained four administrative actions1 including $1,100,000 in payments to Ex-Im Bank
        and one voluntary exclusion with 120 months of debarment as a result of referrals of
        active investigative information to Ex-Im Bank.
   •    Obtained three plea agreements entered in court by subjects pursuant to ongoing
        investigative matters.
   •    Provided 45 reports of investigative information to the Ex-Im Bank Office of General
        Counsel concerning potential funds at risk to support enhanced due diligence efforts
        in approving, processing, and monitoring export credit loan guarantees and
        insurance policies.
   •    Referred five investigative matters to the Department of Justice for prosecutive decision.
   •    Successfully closed 12 investigations after concluding all remaining actions and prose-
        cutive results in those cases and closed further investigative review of over $91 million
        in suspected claims which had been under investigation.
   •    Entered into a Memorandum of Understanding with INTERPOL to help facilitate the
        collection and use of international criminal intelligence.




1 Administrative actions are Ex-Im Bank responses to stop transactions, cancel policies, or protect funds at risk
   based upon investigative findings.




                                                                                Office of Inspector General | Export-Import Bank of the United States   7
Office of Inspector General management initiatives
International collaboration
The OIG participated in meetings with the Berne Union, the worldwide organization of
export credit, insurance, and investment agencies. These meetings allowed the OIG to
discuss areas of interest in the export credit field and to compare Ex-Im Bank’s practices
with other export credit agencies.


The OIG entered into a Memorandum of Understanding with the International Criminal
Police Organization (INTERPOL) facilitating international police cooperation.


Since the majority of OIG investigations and inspections are focused on international
transactions, the OIG seeks to partner with international organizations to collaborate and
exchange ideas and information on how to work together in identifying, preventing, and
investigating fraud.


Council of Inspectors General on Integrity and Efficiency
The OIG participates in the Professional Development Committee of the Council of
Inspectors General on Integrity and Efficiency (CIGIE). The committee provides educational
opportunities, supports the development of personnel, provides opportunities for training
and development of OIG staff, and establishes training to meet continuing education
requirements. The Office of Inspections and Evaluations is participating in the CIGIE
Inspection and Evaluation Committee, which leads the development of protocols for
reviewing management issues that cut across departments and agencies, promotes the
use of advanced program-evaluation techniques, and fosters awareness of evaluation and
inspection practices in OIGs.


Review of legislation and regulations
Pursuant to section 4(a)(2) of the Inspector General Act of 1978, as amended, the OIG
reviews proposed and existing legislation and regulations related to Ex-Im Bank’s programs
and operations.


In response to passage of the Whistleblower Protection Enhancement Act of 2012
(signed into law on November 27, 2012), Ex-Im Bank OIG established an ombudsman to
educate Ex-Im Bank employees about their rights for protected disclosures. The following
announcement is posted on the Ex-Im Bank OIG website. (See www.exim.gov/oig/
WHISTLEBLOWER-PROTECTION-OMBUDSMAN.cfm).




                                                                 Office of Inspector General | Export-Import Bank of the United States   9
                  Office of Inspector General management initiatives


                                     Whistleblower Protection Ombudsman
                                     Pursuant to the Whistleblower Protection Enhancement Act of 2012 (WPEA), the Ex-Im
                                     Bank OIG has designated a Whistleblower Protection Ombudsman to educate Ex-Im Bank
                                     employees about prohibitions on retaliation for protected disclosures, as well as the rights
                                     and remedies against retaliation for protected disclosures for those who have made or are
                                     contemplating making a protected disclosure.


                                     Employees can contact the Whistleblower Protection Ombudsman:
                                         Legal Counsel to the Inspector General
                                         811 Vermont Avenue, N.W.
                                         Room 138
                                         Washington, DC 20571
                                         (202) 565-3908
                                         oig.info@exim.gov


                                     Please note that the Whistleblower Protection Ombudsman is not permitted to act as a
                                     legal representative, agent, or advocate for employees or former employees.


                                     Ex-Im Bank employees may also file complaints or get more information about WPEA
                                     through the U.S. Office of Special Counsel. Under WPEA, the Office of Special Counsel has
                                     sole authority to investigate and prosecute complaints of reprisal against whistleblowing
                                     employees (as well as other prohibited personnel practices). The U.S. Office of Special
                                     Counsel website is www.osc.gov.




10   Office of Inspector General | Export-Import Bank of the United States
Ex-Im Bank management challenges
Beginning in February 2012, under the Government Performance and Results Act (GPRA)
Modernization Act of 2010, Ex-Im Bank must prepare a performance plan to establish
performance goals and indicators, describe how the goals will be achieved and measured,
and describe major management challenges and plans to address such challenges. The
law defines “major management challenges” as “programs or management functions…
that have greater vulnerability to waste, fraud, abuse, and mismanagement (such as issues
identified by an Inspector General) where failure to perform well could seriously affect the
ability of an agency to achieve its mission or goals.”


The OIG has identified several major management challenges. Addressing these challenges
would provide Ex-Im Bank with a more efficient capability to meet its mission of creating
and maintaining jobs in the U.S. through export financing. We will review and update these
challenges semiannually.


HUMAN CAPITAL. The OIG has noted Ex-Im Bank’s low number of underwriters, asset
managers, and compliance personnel relative to the increasing size of its asset exposure.
During the past five years Ex-Im Bank has witnessed significant asset growth to more than
$100 billion as of Fiscal Year (FY) 2012, with more than $35 billion in authorizations in FY
2012 alone. To better serve its customers and provide effective underwriting and oversight,
Ex-Im Bank should reassess the assignment of resources, and review and adjust staffing
levels and requisite in-house expertise to reflect the record growth in authorizations and
asset portfolio management.                                                                                Addressing these challenges
                                                                                                           would provide Ex-Im Bank with

INFORMATION TECHNOLOGY (IT) MANAGEMENT. Ex-Im Bank uses an ineffective,                                    a more efficient capability to
                                                                                                           meet its mission of creating and
inefficient, and fragmented IT platform and infrastructure in several systems and databases.
                                                                                                           maintaining jobs in the U.S.
These systems and databases do not effectively and accurately interface—compromising
data integrity, producing duplicative information, and creating unreliable files. These
systems make data mining burdensome and time-consuming. This ineffective IT platform
compromises the ability of Ex-Im Bank to provide timely service, effectively manage and track
its programs, measure progress, identify transaction patterns, and increase productivity.


Ex-Im Bank is currently working on designing and developing a new comprehensive IT
infrastructure to improve its operations.


STRATEGIC AND PERFORMANCE PLANNING. Under the GPRA Modernization Act
of 2010, Ex-Im Bank is required to produce a strategic plan, an annual performance plan
(APP), and an annual performance report by February 2013. Although Ex-Im Bank issued
a five-year strategic plan in 2010, in our opinion, it has not developed a comprehensive




                                                                  Office of Inspector General | Export-Import Bank of the United States     13
                  Ex-Im Bank management challenges


                                     APP in accordance with Office of Management and Budget guidance to quantify the effect
                                     and success of its program and operations properly. An effective strategic plan describes
                                     goals the agency aims to achieve, what actions the agency will take to realize those goals,
                                     and how the agency will deal with challenges and risks that may hinder achieving results.
                                     An APP offers a framework to measure the costs, benefits, results, and outcomes of its
                                     products, programs, and initiatives.


                                     RISK MANAGEMENT. Given Ex-Im Bank’s position as a “lender of last resort”, its
                                     authorizations have grown in record numbers to support U.S. exports as private lending
                                     has contracted or plateaued. Ex-Im Bank’s significant asset growth during the past five
                                     years, however, presents a continual risk management challenge—how to allocate reserves
                                     to cover potential losses in its credit portfolio so that taxpayers are not affected by an
                                     unforeseen crisis.


                                     Lessons learned from the most recent financial crisis include the inadequacy of overreliance
                                     on historical, quantitative market data and the need for more robust scenario analysis and
                                     stress testing. Different theories have emerged to supplement traditional risk-management
                                     models. They encourage supplementing quantitative data with contextual qualitative data
                                     and the testing of worst-case scenarios to determine whether institutions have the requisite
                                     reserves to withstand exogenous shocks.


                                     Reports by our office and the GAO have looked into Ex-Im Bank’s loss reserve and risk
                                     management policies, and risk mitigation practices. The need for a comprehensive review
                                     of these policies and practices is driven largely by Ex-Im Bank’s significant asset growth, the
                                     economy, and changes in the composition of Ex-Im Bank’s product portfolio. Ex-Im Bank
                                     has started including qualitative data in its analysis, but more progress is still needed.


                                     CUSTOMER SERVICE. Ex-Im Bank has not conducted customer satisfaction surveys on a
                                     regular basis. Customer surveys provide valuable insight into customer priorities, perceptions
                                     of performance, areas for improvement, and other export credit agencies’ best practices.
                                     For example, some Ex-Im Bank participants have complained about approval times and
                                     processes. Reducing the time it takes to approve transactions would allow U.S. exporters to
                                     develop better relationships with clients and customers, encourage borrowers and sellers
                                     to use Ex-Im Bank, and improve the services Ex-Im Bank provides. President Obama’s April
                                     27, 2011, Executive Order (13571) highlighted the importance of federal agency customer
                                     service, instructing federal agencies (including independent agencies) to develop a customer
                                     service plan to streamline service delivery and improve customer experience.




14   Office of Inspector General | Export-Import Bank of the United States
During the previous reporting period, the OIG issued a report with the results of a survey
of Ex-Im Bank customers and users. (OIG-INS-12-03, dated September 28, 2012;
www.exim.gov/oig/upload/Official-Final-Customer-Survey-Report-120928-20Summary-1.pdf).


We recommend that Ex-Im Bank routinely conduct and utilize customer surveys to validate
customer priorities and bank performance.


CREDIT UNDERWRITING AND DUE DILIGENCE PRACTICES. Ex-Im Bank uses a
decentralized under-writing process and a risk-based due diligence model. Given the                          The topics
lessons learned from incidences of fraud in the Medium-Term program, the surge in the                        •    Human capital
number of transactions, and insufficient credit information and history from borrowers                       •    IT management
in some regions, it is vital that Ex-Im Bank continue to improve its credit underwriting                     •    Strategic and
and due diligence practices in order to identify and prevent fraud. (Our report, Evaluation                       performance planning
Report Relating to Medium-Term Export Credit Program, is at www.exim.gov/oig/loader.                         •    Risk management
cfm?csModule=security/getfile&pageid=13549).                                                                 •    Customer service
                                                                                                             •    Credit underwriting and
In July 2010, Ex-Im Bank’s Board of Directors issued an Individual Delegated Authority (IDA)                      due diligence practices
resolution authorizing certain individual Ex-Im Bank officers to approve loans, guarantees,                  •    Corporate governance
and insurance up to $10 million. Prior to this delegated authority, Ex-Im Bank approved                      •    Energy
these transactions through a credit committee. The IDA decentralized underwriting and                        •    Small business
decision-making authority. However, absent strong policies and procedures, decentralized
underwriting and due diligence practices may cause inconsistent criteria to be applied in
different programs.


Ex-Im Bank needs to develop effective policies, procedures, and compliance practices to
ensure the IDA works effectively. These policies should address:
  •    Uniform credit and underwriting standards.
  •    Frequent use of security interest and sporadic inspections in order to better mitigate
       risks in programs and regions where defaults and fraud have been high.
  •    Use of financial statements in programs in which defaults and fraud are high; in
       particular, independently audited financial statements in regions where Ex-Im Bank
       has limited or unfavorable experience.


The lack of due diligence efforts by lenders, specifically lenders with a history of defaulted
transactions in certain products, is a pattern the OIG has observed. Even though Ex-Im Bank
expects such efforts from participating lenders, due diligence is not required in all lender
agreements.




                                                                    Office of Inspector General | Export-Import Bank of the United States    15
                  Ex-Im Bank management challenges


                                     The OIG has anecdotal evidence of institutions’ loan officers expressing that the lender
                                     would not devote resources on due diligence efforts when there is a government guarantee
                                     and Ex-Im Bank does not require such efforts. Although the OIG cannot state that all
                                     lenders demonstrate this behavior, we can state that this “moral hazard” issue is prevalent
                                     in fraud cases involving multiple transactions. Ex-Im Bank should collaborate with lender-
                                     partners and participants to encourage industry-standard due diligence on government
                                     guarantees and insurance transactions. Effective implementation of “Know Your Customer”
                                     practices by lenders could help minimize or prevent fraudulent activity.


                                     CORPORATE GOVERNANCE, BUSINESS PROCESSES, AND INTERNAL CONTROL
                                     POLICIES AND PRACTICES. One of the consistent observations arising out of audits,
                                     evaluations, and investigations conducted by the OIG are weaknesses in governance and
                                     internal controls for business operations. Internal policies providing clear guidance to staff
                                     and establishing clear roles and authorities are not prevalent at Ex-Im Bank. These areas
                                     need to be addressed as part of creating a better corporate governance culture.


                                     Each OIG audit, evaluation, and inspection will review applicable governance and internal
                                     controls and make recommendations to strengthen such controls, including following up
                                     on Ex-Im Bank’s adoption of a new Loan and Guarantee Manual.


                                     RENEWABLE ENERGY PRODUCTS AND CLEAN ENERGY EXPORT OPPORTUNITIES.
                                     Ex-Im Bank’s charter contains a renewable-energy mandate of ten percent of all authoriza-
                                     tions every year. Ex-Im Bank has not met this mandate and recorded a significant drop in
                                     authorizations between 2011 and 2012. Nonetheless, Ex-Im Bank has taken a proactive
                                     approach in developing renewable energy specific products such as Solar Express and in
                                     reaching out to local wind and solar manufacturers.


                                     In July 2010, GAO issued a report on Ex-Im Bank’s environmentally beneficial exports
                                     (Reaching New Targets for Environmentally Beneficial Exports Presents Major Challenges for
                                     Bank, GAO-10-310T; July 14, 2010). It found that although some of the challenges to reach
                                     the target may be outside its control, Ex-Im Bank should develop a strategy for meeting the
                                     target that is integrated into a broader strategy for Ex-Im Bank. It specifically recommended
                                     that Ex-Im Bank improve the tracking, reporting, and planning of its exports strategy to
                                     determine the resources required to meet its target.


                                     We continue to monitor Ex-Im Bank’s progress in this area.


                                     SMALL BUSINESS PARTICIPATION. Since the 1980s, Congress and the Executive Branch
                                     have prioritized the expansion of exports by small businesses. Since 2002, Ex-Im Bank’s




16   Office of Inspector General | Export-Import Bank of the United States
charter has imposed a 20 percent small business participation requirement of all aggregate
authorizations every fiscal year. Ex-Im Bank has exceeded this mandate in the past years.
However, in FYs 2011 and 2012, Ex-Im Bank did not reach the 20 percent target. Although
it reached a record of $6 billion and $6.1 billion in small business export financing in FYs
2011 and 2012, respectively, these amounts fell short of the required 20 percent in financing.


GAO has reported on several aspects of Ex-Im Bank’s financing for small business exports.
Recently, GAO reported on the performance standards that Ex-Im Bank established for
assessing its small business financing efforts. GAO found that Ex-Im Bank had developed
performance standards in most but not all the areas specified by Congress, ranging from
providing excellent customer service to increasing outreach. They also found that some
measures for monitoring progress against the standards lacked targets and time frames,
and that Ex-Im Bank was just beginning to compile and use the small business information
it was collecting to improve operations.2


We continue to monitor progress.




2 Performance Standards for Small Business Assistance are in Place, but Ex-Im is in the Early Stages of Measuring
   Their Effectiveness (GAO-08-915, July 17, 2008) and Export-Import Bank has met Target for Small Business
   Financing Share (GAO-08-419T, Jan 17, 2008)




                                                                               Office of Inspector General | Export-Import Bank of the United States   17
Office of Audits
                  Office of Audits


                                     Summary
                                     The Office of Audits (OA) conducts and oversees independent and objective audits relating
                                     to Ex-Im Bank programs to improve Ex-Im Bank operations. All OIG audits are performed
                                     in accordance with generally accepted government auditing standards promulgated by the
                                     Comptroller General of the United States. Furthermore, OA refers irregularities and other
                                     suspicious conduct detected during audits to the Office of Investigations for investigative
                                     consideration.


                                     OA completed three audits during the six months ended March 31, 2013:
                                         •    Audit of Export-Import Bank’s Financial Statements for FY 2012
                                         •    Improper Payments Reporting—Ex-Im Bank generally complied with Improper Payments
                                              Reporting requirements but should improve its improper payments assessment
                                         •    F Y 2012 Information Security Program and Practices audit


                                     In addition, OA compiled and evaluated information in response to a request from the
                                     Bicameral Task Force on Climate Change.


                                     At the end of the reporting period, OA had two audits in progress:
                                         •    Audit of Export-Import Bank’s implementation of content policy
                                         •    Audit of Export-Import Bank’s Direct Loan Program



                                     Reports
                                     Audit of Export-Import Bank’s Financial Statements for FY 2012 (OIG-AR-13-01, November 15, 2012)
                                     www.exim.gov/oig/upload/OIG-AR-13-01-Report.pdf


                                     An IPA, working under OIG supervision, conducted an audit of Ex-Im Bank’s financial
                                     statements for fiscal year 2012. The IPA issued an unqualified opinion on Ex-Im Bank’s
                                     financial statements. The IPA management did not find any reportable noncompliance with
                                     laws and regulations and did not identify any deficiencies in internal control considered
                                     to be material weaknesses. However, during the audit, the IPA and Ex-Im Bank noted
                                     deficiencies related to Ex-Im Bank’s internal control over financial reporting totaling approxi-
                                     mately $55 million. The deficiencies and recommendations to address them are as follows:


                                     UPDATED RISK RATINGS RELIED ON INACCURATE INFORMATION. The IPA noted mul-
                                     tiple instances where personnel from the Transportation Portfolio Monitoring Division relied
                                     upon inaccurate information to establish risk ratings during the annual risk rating update
                                     process. Some of the inaccuracies included:




20   Office of Inspector General | Export-Import Bank of the United States
  •    Incorrect foreign currency translation rates were used to convert financial statements
       to U.S. dollars.
  •    Incorrect average collateral values were used in the collateral analysis to support risk
       rating upgrades.
  •    Risk rating factors for the country risk in the Asset Management System did not agree
       to Ex-Im Bank’s Budget Cost Level Schedule.


Inaccurate information could result in incorrect risk ratings being applied to credits, which
may cause the year-end allowance and subsidy to be misstated. However, the inaccuracies
identified did not change the approved risk ratings at year-end and therefore did not result
in a misstatement in the financial statements.


The IPA recommended that management enhance the process for reviewing information
relied upon by the Transportation Portfolio Monitoring Division when updating risk ratings.
Management agreed with the recommendation.


INCONSISTENCY IN RISK RATINGS BETWEEN KEY SYSTEMS. After all risk ratings are
finalized at the end of each August, the interaction between the Loans and Guarantees
Accounting system and the Asset Management System is closed to prevent further changes
to the risk ratings. The risk ratings reflected in both systems should agree at the end of the                 The challenges
fiscal year. However, the IPA identified one incident where the risk rating in the Loans and                   •    Accuracy in risk ratings

Guarantees Accounting system did not correspond to the approved risk rating in the Asset                       •    Consistency in ratings systems

Management System at September 30, 2012. The change in the risk rating was due to a                            •    Guaranteed repayment

typographical error, occurred after August 31, 2012, and did not affect the subsidy re-                             schedules

estimate, which was performed based on the correct risk rating as of August 31, 2012.                          •    Subsidy calculation
                                                                                                               •    Loan accrual status

The IPA recommended that Ex-Im Bank monitoring groups review all changes made in the                           •    Loan loss journal entry

Loans and Guarantees Accounting system after August 31st by the Office of the Controller                       •    Loss Given Default calculation

to ensure that changes to risk ratings are appropriate. Further, the IPA recommended that                      •    Security monitoring reports

communications from the monitoring groups to the Office of the Controller include specific
instructions if changes to risk ratings are required after August 31st. Management agreed
with the recommendations.


INACCURATE GUARANTEE REPAYMENT SCHEDULES. Repayment schedules are set
up in the Loans and Guarantees Accounting system according to the executed guarantee
agreements and any amendments to the agreements. The IPA identified two guarantees
that had incorrect repayment information in the Loans and Guarantees Accounting system.




                                                                      Office of Inspector General | Export-Import Bank of the United States          21
                  Office of Audits


                                     After a transaction is approved or amended, financial analysts are required to review the
                                     information entered into the system, including the repayment schedule, to ensure accuracy.
                                     Due to many changes in procedures and personnel during FY 2011 and FY 2012, review
                                     of the information in the system against the executed agreements was ineffective. As a
                                     result, the outstanding guarantees balance was overstated by approximately $100,000 at
                                     September 30, 2012.


                                     The IPA recommended that the financial analysts review and compare information
                                     for all transactions in the Loans and Guarantees Accounting system against the final
                                     approved executed agreements and any amendments. Management agreed with the
                                     recommendation.


                                     INACCURATE INFORMATION USED FOR SUBSIDY CALCULATION. The IPA noted
                                     certain instances where management used incorrect information related to commitment
                                     fees in the subsidy calculation. Additionally, the IPA noted other instances where the
                                     preliminary information used for the subsidy calculation was not updated as per the final
                                     executed agreement.


                                     As a result, negative subsidy or program revenue for transactions authorized during the
                                     fiscal year ended September 30, 2012 was understated by approximately $4.6 million.
                                     The understated amount was corrected through the subsidy re-estimate performed at
                                     September 30, 2012.


                                     The IPA recommended that Ex-Im Bank add a second level of review on the subsidy
                                     calculation prior to releasing the approved or amended transactions into the Loans and
                                     Guarantees Accounting system. Management agreed with the recommendation.


                                     INCORRECT LOAN ACCRUAL STATUS. During a system migration in previous years,
                                     the status of a rescheduled loan that was written off during FY 2005 was changed from
                                     “non-accrual” to “accrual”. As a result, the loan was accruing interest income. Ex-Im Bank
                                     management identified the deficiency, and performed a detailed analysis to determine if
                                     there were other similar instances where interest income was accruing on written-off loans.
                                     Management found no other instances of the deficiency and corrected the “accrual” status
                                     and interest income for the above identified loan.


                                     As a result of the error, Ex-Im Bank’s interest income and loan receivable balance as of
                                     September 30, 2011 was overstated by $59 million. An adjusting entry was recorded by
                                     management in the current year to the correct interest income and loan receivable balance.




22   Office of Inspector General | Export-Import Bank of the United States
The IPA recommended that the Loan Guarantee Servicing Division perform a thorough
review of “accrual” status of loans on a regular basis. Management agreed with the
recommendation.


INCORRECT ALLOWANCE FOR LOAN LOSS JOURNAL ENTRY. Calculation of loss reserve
is performed to determine where additional loss is expected by Ex-Im Bank. Accordingly,
a journal entry is recorded by the Office of Controller to adjust the loss reserve to reflect                 Management agreed or

an addition or reduction in the loss reserve. During testing of Ex-Im Bank’s allowance for                    generally concurred with all

loan loss, the IPA noted a journal entry for pre-credit reform claims loss reserve that was                   recommendations.

recorded in reverse. Though the incorrect journal entry was immaterial and did not result in
a misstatement in the current year’s financial statements, such incorrect entries, especially
relating to the loan loss, could potentially result in a misstatement. Management corrected
the error in the current year.


The IPA recommended that management enhance controls around the journal entry review
process to detect any misstatements that may potentially occur. Management agreed with
the recommendation.


INCORRECT FORMULA USED IN THE LOSS GIVEN DEFAULT CALCULATION. The
Probability of Default (PD) and Loss Given Default (LGD) are components of the loss factors
used to calculate the loss reserve. The IPA identified three formula errors in the PD/LGD
calculations. Specifically, a financial analyst entered inaccurate formulas during the LGD
calculation. Although the effect of these errors was immaterial to the current year’s finan-
cial statements, incorrect information used in the PD/LGD model could cause a misstate-
ment to the loss reserve.


The IPA recommended that management perform a more detailed review of the formulas
used in the allowance for loan loss methodology, in order to detect any errors which may
result in potential misstatements. A detailed tie-out of the PD/LGD model and the default
curve report was also recommended. Management agreed with the recommendation.


RETENTION OF DAILY SECURITY MONITORING REPORTS. Daily Security Monitoring
reports should be retained as audit evidence of the monitoring, review, and actions taken
as required for attempted information technology infrastructure security breaches, anti-virus
infections, vulnerabilities, and availability issues. For 2 of the 15 dates selected for testing,
the IPA noted that the Daily Security Monitoring report and actions taken on the report were
not retained according to Ex-Im Bank procedures. The Office of the Chief Information Officer
delivered additional documentation, from email archives and reproduced from network logs




                                                                     Office of Inspector General | Export-Import Bank of the United States   23
                  Office of Audits


                                     audit documentary evidence, to note that: (1) compensating controls were in place to detect
                                     a security breach for the two days noted as testing exceptions; and (2) emails created on the
                                     two days demonstrate that activity by Ex-Im Bank Network Security existed related to the
                                     missing Daily Security Monitoring reports. However, the IPA determined that a deficiency in
                                     operating effectiveness existed as the properly designed control did not operate as designed.
                                     Specifically, due to gaps in employment and shifting of employee responsibilities, audit
                                     evidence was not maintained or did not sufficiently document actions taken on the Daily
                                     Security Monitoring reports for the two days in question.


                                     The IPA recommended that management ensure all actions taken on the Daily Security
                                     Monitoring report are documented and retained. Management agreed with the
                                     recommendation.

                                     OIG issued a summary of the IPA’s findings and recommendations and management’s
                                     responses in the report Fiscal Year 2011 Financial Statement Audit—Management
                                     Letter (OIG-AR-13-02, January 23, 2013)
                                     www.exim.gov/oig/upload/OIG-AR-13-02-Report.pdf



                                     Improper Payments Reporting—Ex-Im Bank generally complied with improper
                                     payments reporting requirements but should improve its improper payments
                                     assessment (OIG-AR-13-03, March 14, 2013)
                                     www.exim.gov/oig/upload/OIG-AR-13-03-Final-Audit-Report-Improper-Payments-Web.pdf


                                     Improper payments are payments made in the wrong amount, to the wrong entity, or for
                                     the wrong reason. They can result from processing errors, a lack of information, or fraud. In
                                     accordance with the Improper Payments Information Act of 2002 (IPIA), as amended by the
                                     Improper Payments Elimination and Recovery Act of 2010 (IPERA), Inspectors General are
                                     required to annually review their agency’s compliance with improper payments legislation
                                     and evaluate agency efforts to assess, report, and reduce improper payments. As a result, we
                                     reviewed Ex-Im Bank’s improper payments assessment and reporting activities for FY 2011.


                                     We determined that Ex-Im Bank complied with IPIA, as amended by IPERA, in that it report-
                                     ed all required information based on the results of its FY 2011 improper payments assess-
                                     ment. In addition, Ex-Im Bank has established a number of preventive and detective controls
                                     and due diligence requirements intended to minimize the possibility of improper payments.
                                     However, we identified the following concerns which we believe reduce the overall useful-
                                     ness and reliability of Ex-Im Bank’s improper payments assessment:
                                         •    The Office of the Chief Financial Officer (OCFO) incorrectly concluded that all returned
                                              or voided wire and check payments are inherently improper and, moreover, were the
                                              only improper payments made by Ex-Im Bank. This led to measuring Ex-Im Bank’s risk
                                              of improper payments against a list of transactions that were largely not improper as




24   Office of Inspector General | Export-Import Bank of the United States
        defined by IPIA, and supported the OCFO’s decision not to test controls intended to
        prevent or detect improper payments.
   •    The OCFO relied on the results of a risk assessment questionnaire that may not have
        accurately reflected Ex-Im Bank’s risk of improper payments.
   •    Although OMB recognizes that improper payments may include payments based on
        incomplete, inaccurate, or fraudulent information, the OCFO did not include in its
        improper payments assessment certain export credit insurance claims later determined
        to be fraudulent. In FY 2011 alone, the OIG—Office of Investigations determined that
        such claims totaled $1.3 million.


Given (1) internal control weaknesses we have previously identified, including those in
Ex-Im Bank’s key information technology applications, some of which are used to process
payments, and (2) the weaknesses we observed in the OCFO’s FY 2011 improper payments
assessment, we believe Ex-Im Bank’s true risk of significant improper payments is unknown.
As a result, its FY 2011 improper payments reporting may be inaccurate and incomplete,
and its efforts to reduce and recover improper payments may be inadequate.



 To improve Ex-Im Bank’s processes for identifying and assessing its risk
 of improper payments, we recommended that Ex-Im Bank:
   •    Revise its procedures to correctly calculate improper payments rates.
   •    Reconsider the results of its FY 2011 risk assessment.
   •    Modify its risk assessment scoring method.
   •    Include in its assessment insurance claims paid based on fraud or obtain OMB’s
        written approval to continue excluding such payments.
   •    Consider the cost effectiveness and value of conducting recapture audits and
        additional periodic testing for improper payments across all program areas.


Management generally concurred with the recommendations, which will be closed upon
completion and verification of corrective action.

FY 2012 Information security program and practices audit (OIG-AR-13-04, March 22, 2013)
www.exim.gov/oig/upload/Final-Audit-Report-OIG-AR-13-04-Web-2.pdf


The Federal Information Security Management Act of 2002 (FISMA) requires agencies to
develop, document, and implement agency-wide information security programs to protect
their information and information systems. FISMA also requires agencies to undergo an
annual independent evaluation of their information security programs and practices, as
well as an assessment of their compliance with FISMA. To fulfill its FISMA responsibilities,




                                                                    Office of Inspector General | Export-Import Bank of the United States   25
                  Office of Audits


                                     the OIG contracted with an IPA for an independent evaluation of Ex-Im Bank’s information
                                     security program and practices and its overall compliance with FISMA requirements.


                                     The audit found that overall Ex-Im Bank continues to improve and strengthen its information
                                     security program and is addressing the challenges in each of the areas that OMB identified
                                     for the FY 2012 FISMA review. However, Ex-Im Bank is not compliant with all FISMA require-
                                     ments. The audit made three recommendations for corrective action. Management concurred
                                     with the recommendations, which will be closed upon completion and verification of the
                                     proposed actions.


                                     Because the report addresses issues associated with information security at Ex-Im Bank, the
                                     OIG did not make the complete audit report available on-line; however, it may be available
                                     under the Freedom of Information Act.



                                     Ongoing audits
                                     Audit of Export-Import Bank’s implementation of content policy
                                     The mission of Ex-Im Bank is to assist in financing the export of U.S. goods and services to
                                     international markets. Ex-Im Bank enables U.S. companies to turn export opportunities into
                                     real sales that help to maintain and create U.S. jobs and contribute to a stronger national
                                     economy. Ex-Im Bank provides a variety of financing mechanisms, including working capital
                                     guarantees, export-credit insurance, and loans to help foreign buyers purchase U.S. goods
                                     and services. The amount of goods and services produced in the U.S. and included in
                                     Ex-Im Bank-supported transactions—referred to as domestic content—correlates to the
                                     creation or sustainment of U.S. jobs involved in the production of those goods and services.
                                     In fiscal year 2012, Ex-Im Bank approved $35.8 billion in total authorizations supporting
                                     an estimated $50 billion in U.S. export sales and, according to Ex-Im Bank, approximately
                                     255,000 American jobs.


                                     The overall objective of the audit is to evaluate Ex-Im Bank’s procedures for determining
                                     the U.S. content and eligible foreign content included in each transaction supported by the
                                     Ex-Im Bank. Audit work commenced in November 2012. The OIG anticipates issuing an
                                     audit report in September 2013.


                                     Audit of Export-Import Bank’s Direct Loan Program
                                     Under the Direct Loan Program, Ex-Im Bank offers loans directly to foreign buyers of U.S.
                                     goods and services. Ex-Im Bank extends a loan covering up to 85 percent of the U.S. contract
                                     value of the goods to the buyer. Direct loans carry fixed interest rates and generally are
                                     made at terms that are the most attractive allowed under the provisions of the Organization
                                     for Economic Co-operation and Development “Arrangement on Guidelines for Officially


26   Office of Inspector General | Export-Import Bank of the United States
Supported Export Credits”. Direct loan transactions have no minimum or maximum size,
but generally involve amounts of more than $10 million and are approved by Ex-Im Bank’s
Board of Directors.


According to the Congressional Research Service, prior to 1980, Ex-Im Bank’s direct
lending program was its chief financing vehicle, which it used to finance such capital
intensive exports as commercial aircraft and nuclear power plants. Both the budget
authority requested by the Administration and the level approved by Congress for Ex-Im
Bank’s direct lending were sharply reduced during the 1980s. In addition, in the past
decade, demand for Ex-Im Bank direct loans has been limited because commercial interest
rates were low. However, in light of the international financial crisis, long- and medium-term
loan authorizations increased from $0 in FY 2007 to $11.8 billion in FY 2012. Additionally,
between FY 2007 and FY 2012, Ex-Im Bank’s exposure due to loans increased from 9 percent
($5 billion) to 27 percent ($28 billion) of the total portfolio. (From Export-Import Bank
of the United States 2012 Annual Report, www.exim.gov/about/library/reports/
annualreports/2012/)


The overall objective of the audit is to evaluate whether Ex-Im Bank has effectively managed
direct loan transactions, to include properly underwriting, monitoring, and servicing loans.
Audit work commenced in November 2012. The OIG anticipates issuing an audit report in
September 2013.

Response to Bicameral Task Force on Climate Change
www.exim.gov/oig/upload/Bicameral_Task_Force_on_Climate_Change_Web.pdf
                                                                                                            Sales and jobs
                                                                                                            Ex-Im Bank approved $35.8

In a February 25, 2013, letter to the Inspector General the co-chairs of the Bicameral Task                 billion in authorizations

Force on Climate Change requested that the OIG assess whether Ex-Im Bank is doing                           supporting $50 billion in U.S.
                                                                                                            export sales and 255,000
everything it can to confront the growing threat of climate change. Specifically, the OIG
                                                                                                            American jobs.
was asked to (1) identify the existing requirements in legislation, regulation, executive order,
or other directives that apply to Ex-Im Bank; (2) assess whether Ex-Im Bank is meeting these
requirements; (3) make recommendations for improving its performance if it is not meeting
requirements; (4) assess the authorities Ex-Im Bank has to reduce emissions of heat-trapping
pollution; (5) assess Ex-Im Bank’s authorities to make the nation more resilient to the effects
of climate change; and (6) assess the most effective additional steps Ex-Im Bank could take
to reduce emissions or strengthen resiliency.




                                                                   Office of Inspector General | Export-Import Bank of the United States     27
                  Office of Audits


                                     To address the task force’s questions, OA reviewed and summarized information related
                                     to Ex-Im Bank’s efforts to improve energy efficiency in its business operations as well as its
                                     financing of renewable energy and other environmentally beneficial exports.


                                     EX-IM BANK EFFORTS TO IMPROVE ENERGY EFFICIENCY IN ITS BUSINESS
                                     OPERATIONS. OA determined that, with respect to its business operations, Ex-Im Bank is
                                     taking steps to address requirements for improving energy efficiency. Examples included
                                     (1) a multi-year modernization of Ex-Im Bank’s Washington, DC headquarters, the Lafayette
                                     Building, which Ex-Im Bank leases from the General Services Administration; (2) progress
                                     toward promoting green purchasing of products and services; and (3) promoting efficiency
                                     in travel to include both mission-related travel and employee commuting. However, given
                                     the significant increase in Ex-Im Bank’s authorizations and the need for international air
                                     travel to support Ex-Im Bank’s mission of expanding U.S. exports and developing new
                                     foreign buyers of U.S. goods and services, management’s efforts to reduce greenhouse
                                     gas related to air travel and other business-related activities will continue to be a challenge.


                                     EX-IM BANK FINANCING OF RENEWABLE ENERGY AND OTHER ENVIRONMENTALLY
                                     BENEFICIAL EXPORTS. OA determined that, after reviewing Ex-Im Bank’s efforts to
                                     meet congressional directives concerning environmental exports financing, the GAO
                                     reported in July 2010 that Ex-Im Bank’s financing of exports it identified as environmentally
                                     beneficial was well short of the 10 percent congressional target.3 In March 2012, Ex-
                                     Im Bank management reported specific actions planned and taken to address GAO’s
                                     recommendations and other steps to support financing for renewable energy and
                                     other environmentally beneficial exports. In fact, Ex-Im Bank’s increased support for
                                     environmentally-beneficial U.S. exports, including those related to the production of
                                     renewable sources of energy, has shown an overall positive trend. However, although the
                                     total number of environmentally beneficial authorizations increased 4.9 percent to 149
                                     in FY 2012 from 142 in FY 2011, the amount of authorizations decreased 30.9 percent to
                                     $614.5 million from $889.5 million. Additionally, when examining the portion of these
                                     authorizations represented by renewable energy projects, both the total number and
                                     amount of authorizations decreased between FY 2011 and FY 2012 by 35.6 percent and
                                     50.7 percent, respectively. Additionally, as illustrated by Ex-Im Bank’s financing of coal-fired
                                     power plants, OA determined that Ex-Im Bank has struggled to balance the need to support
                                     American jobs and energy exports, while simultaneously encouraging development of
                                     renewable energy facilities.




                                      3 “Export-Import Bank: Reaching New Targets for Environmentally Beneficial Exports Presents Major Challenges
                                         for Bank” (GAO-10-682, July 2010).




28   Office of Inspector General | Export-Import Bank of the United States
In sum, OA reported to the Task Force that, based on a review of information provided
by Ex-Im Bank management, to include Ex-Im Bank’s (1) 2012 Annual Report, (2) FY
2012 Greenhouse Gas Inventory Management Plan submission, and (3) March 28, 2012,
environmental exports report provided to the Senate Committee on Appropriations
pursuant to P.L. 112-74, Ex-Im Bank is striving to meet requirements and address existing
GAO recommendations for improving its performance. As a result, the OIG did not make
additional recommendations for improving Ex-Im Bank’s performance.




                                                                Office of Inspector General | Export-Import Bank of the United States   29
Government
Accountability Office (GAO)
                  Government Accountability Office


                                     The Inspector General (IG) Act states that each IG shall give particular regard to the
                                     activities of the Comptroller General of the United States with a view toward avoiding
                                     duplication and ensuring effective coordination and cooperation. The GAO issued the
                                     following report related to Ex-Im Bank activities during the reporting period:

                                     Export-Import Bank: Recent Growth Underscores Need for Continued Improvements
                                     in Risk Management (GAO-13-303, March 28, 2013).
                                     www.gao.gov/assets/660/653373.pdf



                                     GAO reported that, from FY 2008 to FY 2012, Ex-Im Bank’s outstanding financial commit-
                                     ments (exposure) grew from about $59 billion to about $107 billion, largely in long-term
                                     loans and guarantees. Ex-Im Bank’s processes for determining credit subsidy costs, loss
                                     reserves and allowances, and fees account for multiple risks. Also, consistent with industry
                                     practices, Ex-Im Bank added factors to its loss model in 2012. However, GAO found that
                                     opportunities exist to further improve the model. For example, Ex-Im Bank uses a one-year
                                     forecast of certain bond defaults to predict possible changes in loss estimates from changed
                                     economic conditions, but GAO reported that a short-term forecast may not be appropriate
                                     for adjusting estimated defaults for longer term products. Additionally, GAO reported that
                                     Ex-Im Bank has not maintained data needed to compare the performance of newer books
                                     of business with more seasoned books at comparable points in time, a type of analysis
                                     recommended by federal banking regulators. Without point-in-time data showing when
                                     defaults occur, GAO concluded that the precision of Ex-Im Bank’s loss model may be limited.


                                     GAO also noted that Ex-Im Bank has started addressing recommendations by the OIG
                                     regarding portfolio stress testing, thresholds for managing portfolio concentrations, and
                                     risk governance. GAO reported that their review of internal control standards and industry
                                     practices indicates that the OIG’s recommendations represent promising techniques that
                                     merit continued attention. The related OIG inspection report (Report on Portfolio Risk and
                                     Loss Reserve Allocation Policies, OIG-INS-12-02, September 28, 2012) can be accessed at
                                     www.exim.gov/oig/upload/Final-20Report-20Complete-20Portfolio-20Risk-20120928-1.pdf.


                                     GAO recommended that Ex-Im Bank should (1) assess whether it is using the best available
                                     data for adjusting the loss estimates for longer-term transactions to account for global
                                     economic risk, (2) retain point-in-time performance data to compare the performance of
                                     newer and older business and to enhance loss modeling, (3) report stress testing scenarios
                                     and results to Congress, and (4) develop benchmarks to monitor and manage workload
                                     levels. Management concurred with GAO’s recommendations.




32   Office of Inspector General | Export-Import Bank of the United States
Office of Inspections
and Evaluations
                  Office of Inspections and Evaluations


                                     Summary
                                     The Office of Inspections and Evaluations (OIE) conducts independent inspections and
                                     policy evaluations to assess the efficiency and effectiveness of Ex-Im Bank’s programs,
                                     operations, and transactions. All OIE assignments are performed in accordance with
                                     CIGIE guidelines and standards including the 2010 “Quality Standards for Inspections and
                                     Evaluations”. OIE works in tandem with the Office of Audit and the Office of Investigations
                                     whenever appropriate. Moreover, OIE refers irregularities and other suspicious conduct
                                     detected during its reviews to the Office of Investigations for investigative consideration.


                                     During the first half of FY 2013, OIE worked with Ex-Im Bank management to address the
                                     recommendations issued in our Portfolio Risk and Loss Reserve Allocation Policies Report
                                     dated September 28, 2012 (www.exim.gov/oig/upload/Final-20Report-20Complete-
                                     20Portfolio-20Risk-20120928-1.pdf) and commenced two new initiatives:


                                     1  Follow-up evaluation of Ex-Im Bank economic impact procedures
                                         Ex-Im Bank’s economic impact procedures are intended to provide a methodological
                                         framework to assure that Ex-Im Bank’s projects do not have an adverse impact on U.S.
                                         industry. First introduced to Ex-Im Bank’s Charter in 1968, the procedures have been the
                                         subject of Congressional scrutiny and public interest. In prior years, both the OIG and
                                         GAO have identified opportunities for improvement.4 The most recent version of the
                                         procedures was approved by Ex-Im Bank’s Board of Directors on November 19, 2012 and
                                         will take effect April 1, 2013.


                                         This follow-up evaluation complements OIG’s prior report by analyzing the new
                                         procedures in the context of OIG’s prior findings and recommendations. OIE expects to
                                         publish the results of its evaluation during the next fiscal period.


                                     2  Transaction Inspections
                                         Transaction inspections are key to good financial governance and help Ex-Im Bank
                                         achieve several core objectives:
                                         •    Validate delivery of goods and services financed.
                                         •    Establish areas of noncompliance with policies and procedures.
                                         •    Determine factors that may lead or have led to project impairment.
                                         •    Identify areas of vulnerability and possible corporate malfeasance or fraud.
                                         •    Provide “lessons learned” and recommendations for corrective action to mitigate the
                                              risk of loss.


                                      4 OIG’s 2010 report entitled, Evaluation Report Relating to Economic Impact Procedures can be found at
                                         www.exim.gov/oig/loader.cfm?csModule=security/getfile&pageid=13549.




36   Office of Inspector General | Export-Import Bank of the United States
OIE conducts two types of inspections:
   •    Validation inspections to confirm delivery of goods/services and ensure transaction
        specifications are met.
   •    Directed inquires which provide a comprehensive assessment of all aspects of the
        transaction involving substantial resource allocation and are subject to predefined                     New initiatives
        selection criteria including the risk of material loss, allegations of fraud, Congressional             •    Follow-up evaluation of

        request, etc.                                                                                                economic impact procedures

                                                                                                                     that provide a framework

OIE identified several potential inspections for FY 2013 and is currently reviewing two Ex-Im                        to assure that projects do not

Bank structured financings. A brief description of one of the financings appears below. OIE                          have an adverse impact

expects to release the results of its inspections in the following fiscal period.                                    on industry.
                                                                                                                •    Transaction inspections that

Minera y Metalurica Del Boleo S.A. (Boleo)                                                                           are a key to good financial

The Boleo project involves the development of an underground copper-cobalt-zinc mine                                 governance and help Ex-Im

located near the town of Santa Rosalia in Baja California Sur, Mexico. The mine is owned                             Bank achieve several core

and operated by a consortium of Korean companies and the Baja Mining Corporation,                                    objectives

a listed Canadian company. The total project cost for developing the mine was initially
estimated at $1.199 billion, financed by sponsor equity of $490 million and debt financing
of approximately $710 million. Ex-Im Bank joined an existing syndicate of lenders, providing
$419.9 million in financing. Other export credit agencies, as well as commercial lenders,
provided the balance of the financing. OIE’s inspection seeks to develop a coherent
explanation of events and causal factors that led to a significant cost overrun of the project
and, with the benefit of hindsight, to identify lessons learned on Ex-Im Bank’s underwriting
and monitoring of the transaction. Specifically, what could Ex-Im Bank have done differently
from a credit approval and monitoring perspective?



Interagency cooperation and interaction
OIE organized and moderated a discussion roundtable on credit portfolio management
best practices in October, 2012. The roundtable was attended by a broad group of U.S.
federal agencies and multilateral financial institutions. Moreover, the OIE participates in
a cross-agency dialogue to promote credit portfolio management best practices across
U.S. federal agencies.


In addition, the OIE is participating in the CIGIE Inspection and Evaluation Committee, which
leads the development of protocols for reviewing management issues that cut across depart-
ments and agencies, promotes the use of advanced program-evaluation techniques, and
fosters awareness of evaluation and inspection practices in OIGs.




                                                                       Office of Inspector General | Export-Import Bank of the United States          37
                  Office of Inspections and Evaluations


                                     During this period, OIE participated in several conversations with representatives from GAO
                                     to discuss Ex-Im Bank’s loss reserve and risk management practices, business strategy, and
                                     due diligence procedures.




38   Office of Inspector General | Export-Import Bank of the United States
Office of Investigations
                  Office of Investigations


                                     Summary
                                     The Office of Investigations (OI) conducts and coordinates investigations relating to alleged
                                     or suspected violations of laws, rules, or regulations occurring in Ex-Im Bank programs and
                                     operations. The subjects of OI investigations can be program participants, contractors,
                                     Ex-Im Bank management, or employees. Special Agents in OI are federal criminal investi-
                                     gators (job series 1811). Investigations that uncover violations of federal law, rules, or
                                     regulations may result in criminal or civil prosecution, and administrative sanctions.


                                     During this reporting period, OI continued its mission objectives of investigating and pre-
                                     venting trade finance and export credit insurance fraud impacting Ex-Im Bank. Some of the
                                     actions recorded during the period include:
                                         •    Obtained five criminal judgments resulting in 80 months imprisonment, 180 months’
                                              probation, and $2,379,577 in criminal restitution, forfeiture, and special assessments.
                                         •    Obtained four administrative actions5 including $1,100,000 in payments to Ex-Im Bank
                                              and one voluntary exclusion with 120 months of debarment as a result of referrals of
                                              active investigative information to Ex-Im Bank.
                                         •    Obtained three plea agreements entered in court by subjects pursuant to ongoing
                                              investigative matters.
                                         •    Provided 45 reports of investigative information to the Ex-Im Bank Office of General
                                              Counsel concerning potential funds at risk to support enhanced due diligence efforts
                                              in approving, processing, and monitoring export credit loan guarantees and insurance
                                              policies.
                                         •    Referred five investigative matters to the Department of Justice for prosecutive decision.
                                         •    Successfully closed 12 investigations after concluding all remaining actions and
                                              prosecutive results in those cases and closed further investigative review of over
                                              $91 million in suspected claims which had been under investigation.
                                         •    Entered into a Memorandum of Understanding with INTERPOL to help facilitate
                                              the collection and use of international criminal intelligence.




                                      5 Administrative actions are Ex-Im Bank responses to stop transactions, cancel policies, or protect funds at risk
                                         based upon investigative findings.




42   Office of Inspector General | Export-Import Bank of the United States
Summary of investigations
OI evaluates all reports of possible fraud or illegality affecting Ex-Im Bank programs
and activities. Such reports are received from a variety of sources including Ex-Im Bank
employees, Ex-Im Bank Office of General Counsel, participants in Ex-Im Bank transactions,
other government agencies, and the Ex-Im Bank OIG Hotline. Evaluations that identify
reasonable indications of possible fraud or illegality result in an investigation. These
investigations are summarized in the table below.


                         Activity                      Investigations       Claims*        Claim amounts
       Open as of October 1, 2012                               39            502           $339,512,631
       Opened during period                                      4             14            $2,379,800
       Closed during period                                     (12)          (142)         ($91,343,067)
       Open as of March 31, 2013                                31            374           $250,549,264

      * The number and amount of claims paid subject to investigation. Not all investigations involve claims
      paid by Ex-Im Bank. Not all claims opened or closed in the period are related to cases opened or closed
      in the period, but may be related to other active investigations. The referral of a claim to the OIG
      for investigation does not establish the existence of fraud and not all claims included in a case under
      investigation are necessarily fraudulent until proven so by evidence developed in the investigation. The
      number of claims may vary during the course of an investigation as facts and findings develop.




Summary of investigative results
The Office of Investigations obtained the following actions during this reporting period.


                      Description                         OIG            Joint activities*            Total
       Matters Referred to the                              3                     2                     5
       Department of Justice
       Pleas Entered                                        2                     1                     3
       Criminal Judgments                                   2                     3                     5
       Prison Time (months)                                26                    54                    80
       Probation (months)                                  72                   108                    180
       Court Ordered Fines,                           $1,375,374           $1,004,203             $2,379,577
       Restitution, and Forfeiture
       Administrative Actions**                             0                     4                     4
       Administrative Cost Savings                         $0              $1,100,000             $1,100,000
       and Repayments

      * Joint investigations with other law enforcement agencies.
      ** Administrative actions are responses by Ex-Im Bank to stop transactions, cancel policies, or protect
      funds at risk based upon investigative findings.




                                                                              Office of Inspector General | Export-Import Bank of the United States   43
                  Office of Investigations


                                     Investigations
                                     Export Credit Insurance & Loan Guarantee Program
                                     One of Ex-Im Bank’s key programs—the export credit insurance program—has been
                                     particularly susceptible to fraud schemes by foreign borrowers, U.S. based exporters, and
                                     other transaction participants. This program accounts for several investigations currently
                                     underway. While there are several different programs in Ex-Im Bank, criminal activity
                                     exploits certain processes within the programs in order to induce Ex-Im Bank to approve
                                     insurance or guaranteed coverage.


                                             Export Credit Insurance Program
                                             This program offers protection in the form of several different insurance policy
                                             types to U.S. exporters and their lenders against non-payment by foreign buyers
                                             due to commercial and political risks. Export credit insurance allows exporters
                                             to increase export sales by limiting international repayment risk, offering credit
                                             to international buyers, and enabling exporters to access working capital funds.
                                             One fraudulent scheme to exploit this program involves the falsification of
                                             shipping records to convince Ex-Im Bank that the described goods have been
                                             shipped when in fact they have not.


                                     Successful investigative efforts within the export credit insurance program during the
                                     reporting period include the reports noted below.


                                     Mexican Businessman Sentenced for Scheme to Defraud Export-Import Bank
                                     On October 31, 2012, Judge Kathleen Cardone in the U.S. District Court in El Paso, Texas
                                     sentenced Eduardo Rodriguez-Davalos to serve six months home confinement for his role
                                     in a scheme to defraud the Ex-Im Bank. Rodriguez pleaded guilty on May 15, 2012, to one
                                     count of making a false statement in connection with a scheme to defraud Ex-Im Bank
                                     of approximately $975,025. In addition to his prison term, Rodriguez was sentenced to
                                     serve five years of supervised release and was ordered to pay a $25,000 fine. Rodriguez’s
                                     sentencing is part of an ongoing federal investigation involving multiple subjects engaged in
                                     fraudulent loan applications and exports into Mexico.


                                     According to court documents, Rodriguez, a Mexican citizen, was the owner of a pecan
                                     brokerage company in Ciudad Juarez known as Procesadora La Nogalera S.A. de C.V. and
                                     resided both in Ciudad Juarez, Mexico and in El Paso, Texas. Rodriguez admitted that, in
                                     2005, he applied for an Ex-Im Bank insured loan for approximately $975,025 through a
                                     private finance company in Maryland. As part of his fraudulent loan application, Rodriguez
                                     and others submitted a fraudulent loan application, invoices, letters, and bills of lading to
                                     falsely represent to the Maryland finance company and Ex-Im Bank for the purchase and




44   Office of Inspector General | Export-Import Bank of the United States
export of U.S. goods to Rodriguez in Mexico. Rodriguez also admitted to assisting
a co-conspirator transfer $351,000 in Ex-Im Bank insured loan proceeds.


The case was prosecuted by the Department of Justice Criminal Division Fraud Section and
U.S. Attorney’s Office for the Western District of Texas, El Paso Division. The Ex-Im Bank                   The headlines
OIG, Homeland Security Investigations in El Paso, the Internal Revenue Service-Criminal                      •    Mexican Businessman

Investigation and U.S. Postal Inspection Service, Washington, DC investigated the case.                           Sentenced for Scheme

                                                                                                                  to Defraud Bank

Mexican Pecan Company Owner Sentenced to 48 Months in Prison                                                 •    Mexican Pecan Company

for Scheme to Defraud Export-Import Bank                                                                          Owner Sentenced to Prison

On November 7, 2012, Judge Kathleen Cardone in the U.S. District Court in El Paso, Texas                          for Scheme to Defraud

sentenced Leopoldo Valencia-Urrea, the owner of a pecan brokerage company in Ciudad                               Ex-Im Bank

Juarez, Chihuahua, Mexico, to serve 48 months in prison for his role in a scheme to defraud                  •    South Florida Business Owner

Ex-Im Bank of approximately $400,000. Valencia pleaded guilty on Oct. 13, 2011, to one                            Sentenced for Scheme to

count of conspiracy to commit wire fraud, one count of wire fraud, and one count of                               Defraud Bank

money laundering conspiracy. In addition to his prison term, Valencia was sentenced to                       •    Miami Businessman Sentenced

serve three years of supervised release and was ordered to pay $58,000 in restitution and                         in Scheme to Defraud Bank

$399,075 in forfeiture.                                                                                      •    Mexican Produce Company

                                                                                                                  Owner Sentenced for Making

According to court documents, Valencia, a United States citizen, was the owner of a pecan                         False Statement

brokerage company in Ciudad Juarez and resided in El Paso. Valencia admitted that in                         •    Mexican Farmer Pleads Guilty

2006, he applied for an Ex-Im Bank insured loan for $406,258 through a bank in Miami.                             to Defrauding Ex-Im Bank

As part of his fraudulent loan application, Valencia, and others, submitted a fraudulent loan                •    Financial Consultant Extradited

application, financial statements, invoices, letters, and bills of lading to falsely represent to                 for Alleged Scheme to

the Miami bank and Ex-Im Bank for the purchase and export of U.S. goods to Valencia in                            Defraud Bank

Mexico. After the exporter who conspired with Valencia received $399,075 from the Miami                      •    OIG Announces Capture

bank, Valencia and others diverted the loan proceeds directly to Valencia and others in                           and Seeks Information on

Mexico. Because of the fraud, Valencia’s loan defaulted, causing Ex-Im Bank to pay a claim                        Fugitives

to the lending bank on a $371,962 loss.


The Department of Justice Criminal Division Fraud Section and the U.S. Attorney’s Office of
the Western District of Texas are prosecuting the case. Ex-Im Bank OIG, Homeland Security
Investigations in El Paso, Internal Revenue Service-Criminal Investigation in Washington,
DC, and the U.S. Postal Inspection Service in Washington, DC investigated the case. The
Financial Crimes Enforcement Network provided significant financial analysis and strategic
assistance during the course of this investigation.


South Florida Business Owner Sentenced for Scheme to Defraud Export-Import Bank
Hector R. Mestril, a Miami armored glass supplier, was sentenced on March 13, 2013,




                                                                    Office of Inspector General | Export-Import Bank of the United States         45
                  Office of Investigations


                                     by Judge Jose E. Martinez in U.S. District Court in Miami, Florida to serve 14 months in
                                     prison for his role in a scheme to defraud Ex-Im Bank of approximately $888,400. Mestril,
                                     a naturalized U.S. citizen from Cuba, pleaded guilty on January 3, 2013, to one count of
                                     conspiracy to commit wire fraud and one count of wire fraud. In addition to the prison
                                     term, Mestril was sentenced to 36 months of supervised release, was ordered to pay
                                     $345,727.64 in restitution (jointly with a co-defendant), forfeit $888,393.26, and pay $200
                                     in special assessments.


                                     According to court documents, Mestril was the owner of Interglass & Armoring Corporation,
                                     an exporter located in Miami that purported to be in the business of exporting armored
                                     glass products to buyers in foreign countries. Mestril admitted that he and co-conspirators
                                     created false invoices, shipping documents, financial statements, and other documents
                                     that were submitted to a Miami finance company. The false documents were ultimately
                                     submitted to Ex-Im Bank to insure the financial transaction. Mestril admitted that none of
                                     the buyers existed and none of the equipment was exported. Mestril received a total of
                                     $888,393.26 in insured loan proceeds and ultimately defaulted on his loan, causing a loss
                                     to Ex-Im Bank and the U.S. government of $575,380.53.


                                     Mestril’s sentencing is part of an ongoing OIG investigation into a network of export credit
                                     insurance fraud schemes involving exports into South America which, to date, has resulted
                                     in criminal charges against six defendants, four convictions, and more than $13.5 million in
                                     court ordered criminal fines and restitution. One fugitive fled to Argentina; he was captured
                                     in December 2011 and is awaiting extradition back into the United States.


                                     The Department of Justice Criminal Division Fraud Section is prosecuting the case. Special
                                     agents with Ex-Im Bank OIG investigated the case.


                                     Miami Businessman Sentenced in Scheme to Defraud Export-Import Bank
                                     On February 13, 2013, Diego Pinzon-Villamil was sentenced by Judge Marcia G. Cooke in
                                     U.S. District Court in Miami, Florida to serve 12 months in home confinement for his role in
                                     a scheme to defraud Ex-Im Bank of nearly $141,000.


                                     In addition to home confinement, Pinzon was sentenced to 36 months of supervised release
                                     and was ordered to pay $141,053 in restitution. Pinzon pleaded guilty on November 28,
                                     2012, to one count of conspiracy to commit wire fraud and one count of wire fraud in
                                     connection with a scheme to defraud Ex-Im Bank of approximately $141,000. Pinzon was
                                     born in Colombia and is a lawful permanent resident of the United States.




46   Office of Inspector General | Export-Import Bank of the United States
According to court documents, Pinzon was the owner of Ceramic Tile USA, a ceramic tile
and equipment exporter located in Miami that purported to be in the business of exporting
tile and tile cutting equipment to buyers in South America. According to court records,
Pinzon admitted that he and co-conspirators created false invoices, shipping documents,
financial statements, and other documents that were submitted to a Miami finance
company. The false documents were ultimately submitted to Ex-Im Bank to insure the
financial transaction. Pinzon admitted that, in fact, none of the buyers existed and none
of the equipment was exported. Pinzon received a total of $656,117.96 in insured loan
proceeds and ultimately defaulted on his loan, causing a loss to Ex-Im Bank and the U.S.                  $13.5 million
government of $141,053.                                                                                   in fines
                                                                                                          The sentencing is part of an

Pinzon’s sentencing is part of an ongoing OIG investigation into a network of export credit               the OIG investigation into

insurance fraud schemes involving exports into South America which, to date, has resulted                 a network of export credit
                                                                                                          insurance fraud schemes
in criminal charges against six defendants, four convictions, and more than $13.5 million in
                                                                                                          that has resulted in charges
court ordered criminal fines and restitution. One fugitive had fled to Argentina, where he
                                                                                                          against six defendants, four
was captured in December 2011 and is awaiting extradition back into the United States.
                                                                                                          convictions, and $13.5 million
                                                                                                          in fines and restitution
The case was prosecuted by the Fraud Section of the U.S. Department of Justice Criminal
Division and investigated by the Ex-Im Bank OIG.


Mexican Produce Company Owner Sentenced for Making a False Statement
to Institution Insured By Export-Import Bank
On March 15, 2013, Chief Judge Fred Biery in U.S. District Court in San Antonio, Texas,
sentenced Gilberto Salazar-Escoboza, to $500,000.00 in fines and twelve months of super-
vised release. Salazar was the owner of a produce company in Hermosillo, Sonora, Mexico.


Salazar pleaded guilty on August 13, 2012, to one count of making a false statement to Frost
National Bank, concerning loans insured by Ex-Im Bank. Salazar was arrested on July 14, 2012,
in California as he entered the United States from Mexico. According to an indictment filed
on June 20, 2012, in the Western District of Texas, San Antonio, Texas, Salazar was originally
charged with three counts of bank fraud in connection with Ex-Im Bank insured loans. Since
his plea in August 2012, Salazar has paid back approximately $2.64 million in restitution to
Ex-Im Bank, Frost National Bank, and a private insurance agency.


According to court documents, Salazar, a Mexican citizen, was the owner of three
businesses identified as Empacadora Fruitcola Santa Ines, S.A. de C.V., La Costa Distrib-
uciones Comerciales S.A. de C.V., and Videxport S.A. de C.V. located in Hermosillo, Sonora,
Mexico. All of these businesses are large produce and fruit companies which obtained loans
from Frost National Bank for purchasing U.S. manufactured equipment from U.S. suppliers.




                                                                 Office of Inspector General | Export-Import Bank of the United States     47
                  Office of Investigations


                                     Frost Bank insured some of those loans with Ex-Im Bank. Salazar admitted that in February
                                     2009, he knowingly made a false statement and report to a financial institution, when he
                                     submitted five checks to Frost National Bank purporting to show the payment of invoices to
                                     a supplier of goods, when such checks were never delivered to the supplier.


                                     The case was prosecuted by the U.S. Attorney’s Office for the Western District of Texas,
                                     San Antonio Division. The case was investigated by the Ex-Im Bank Office of Inspector
                                     General and Homeland Security Investigations in El Paso.


                                     Mexican Farmer Pleads Guilty to Defrauding Ex-Im Bank
                                     A Mexican farmer, subject of an ongoing investigation in Texas, is facing judicial action
                                     for his role in a scheme to defraud the Ex-Im Bank. On September 5, 2012, the individual
                                     surrendered at the U.S. port of entry in El Paso, Texas pursuant to an indictment and
                                     warrant sought by Ex-Im Bank OIG agents for his arrest in 2010. He was arrested at the
                                     border and processed by Ex-Im Bank OIG agents with the U.S. Marshals Service in El Paso.
                                     On January 8, 2013, he pleaded guilty and is currently awaiting sentencing as part of this
                                     ongoing investigation into $2.8 million in fraudulent claims against Ex-Im Bank.


                                             Loan Guarantee Program
                                             Ex-Im Bank assists exporters by guaranteeing term financing from a commercial
                                             lender to creditworthy international buyers, both private and public sector, for
                                             purchases of U.S. goods and services. Ex-Im Bank’s guarantee of a lender’s loan
                                             to an international buyer is used to finance purchases of U.S. goods and services.
                                             Criminals have exploited this program by submitting false financial statements
                                             of foreign borrowers in order to induce Ex-Im Bank to provide its guarantee
                                             coverage for a loan for which they might otherwise be ineligible, and by sub-
                                             mitting false documentation to the guaranteed lender and Ex-Im Bank regard-
                                             ing the shipment, nature, or quantity of the U.S. goods allegedly being exported.


                                     Successful investigative efforts within the loan guarantee program during the reporting
                                     period include the following:


                                     Financial Consultant Extradited to the United States
                                     for Alleged Scheme to Defraud the U.S. Export-Import Bank
                                     On January 25, 2013, Manuel Ernesto Ortiz-Barraza, an independent financial consultant,
                                     was extradited to the United States for his alleged role in a scheme to defraud Ex-Im Bank
                                     of over $2.5 million. Ortiz-Barraza was charged, in an indictment unsealed on Oct. 19, 2011
                                     in the Western District of Texas, with one count of conspiracy to commit wire and bank
                                     fraud, three counts of wire fraud and one count of bank fraud for his alleged role in a




48   Office of Inspector General | Export-Import Bank of the United States
scheme with several others. Based on a provisional arrest warrant, Mexican authorities
arrested Ortiz-Barraza in Mexico on Feb. 13, 2012 and he has been awaiting extradition to
the United States, a process which was recently finalized by the Mexican courts.


According to the U.S. indictment and court documents, Ortiz-Barraza and his coconspirators
allegedly conspired to obtain Ex-Im Bank guaranteed loans through banks by creating
false loan applications, false financial statements, and other documents purportedly for
the purchase and export of U.S. goods into Mexico. OrtizBarraza and his co-conspirators
allegedly falsified shipping records to support their claims of doing legitimate business and              Seeking fugitives
did not ship the goods that were guaranteed by Ex-Im Bank. After the loan proceeds were                    Federal agents are seeking

received, Ortiz-Barraza and his co-conspirators allegedly split the loan proceeds among                    eight fugitives charged in

themselves. Because of the alleged fraud, the conspirators’ loans defaulted, causing Ex-Im                 unsealed federal indictments
                                                                                                           and believed to be residing
Bank to pay claims to lending banks on a loss of over $2.5 million.
                                                                                                           in or near Ciudad Juarez,
                                                                                                           Chihuahua, Mexico.
The charges and allegations contained in the indictment are merely accusations and the
defendants are presumed innocent unless and until proven guilty.


The case is being prosecuted by the Department of Justice Criminal Division Fraud Section
and the U.S. Attorney’s Office of the Western District of Texas. Ex-Im Bank OIG, Homeland
Security Investigations in El Paso, Internal Revenue Service-Criminal Investigation in Washing-
ton, DC; and the U.S. Postal Inspection Service in Washington, DC investigated the case. The
U.S. Marshals Service and the Department of Justice Criminal Division Office of International
Affairs in Washington, D.C. provided substantial assistance. The Department of Justice is
particularly grateful to the government of Mexico for their assistance in this matter.


OIG Export-Import Bank Announces Capture and Seeks Information on Fugitives
On February 1, 2013, the OIG announced that, pursuant to an ongoing joint investigation,
one fugitive has been captured and extradited to the United States and several federal
fugitives continue to be sought in connection to a multi-million dollar export fraud scheme.


Federal agents are currently seeking the location and arrest of eight fugitives charged in
unsealed federal indictments and believed to be residing in or near Ciudad Juarez, Chihuahua,
Mexico. These fugitives are:
  •    Sergio Acosta-Camacho, a Mexican citizen and former owner of AML Construction;
  •    Pedro Ruvalcaba-Placencia, a Mexican citizen and owner of a business, Delicas Nuez,
       in Ciudad Juarez;
  •    Jorge Martinez-Joo, a Mexican citizen and former owner of El Paso-based exporter,
       El Paso Valcomar Inc.;




                                                                  Office of Inspector General | Export-Import Bank of the United States   49
                  Office of Investigations


                                         •    Adrian Rascon-Chavez and his wife Genoveva Fontes de Rascon, both United States
                                              citizens and former owners of Juarez-based clinic Centro Oncologico de Norte SA;
                                         •    Maria de Jesus Ortiz-Saldivar, a Mexican citizen and the former accountant of Genoveva
                                              Fontes de Rascon;
                                         •    Jorge Valdez-Cota and his wife, Veronica Iglesias-Lucero, both Mexican citizens and
                                              owners of a metal fabrication shop in Ciudad Juarez; and
                                         •    Gilberto Ruiz-Gonzalez, a Mexican citizen, resident of Ciudad Juarez, and owner of
                                              Passage Supply.


                                     OIG investigations have found that the fugitives and several other defendants conspired
                                     to defraud Ex-Im Bank of millions of dollars through various loan schemes resulting in over
                                     $22 million in claims paid Ex-Im Bank. These fugitives have been charged with a variety of
                                     federal criminal violations to include conspiracy, wire fraud, and money laundering.


                                     On January 25, 2013, fugitive Manuel Ernesto Ortiz-Barraza (Ortiz) was extradited to the
                                     United States from Mexico as part of this ongoing investigation (www.exim.gov/oig/
                                     upload/Ortize-Barraza-Extradition.pdf). Because of the successful capture and extradition
                                     of Ortiz, investigators are currently attempting to locate and arrest eight additional fugitives
                                     and co-conspirators of Ortiz charged as a result of the joint investigation related to trade
                                     financing fraud.


                                     Ex-Im Bank OIG, Immigration Customs Enforcement-Homeland Security Investigations,
                                     the U.S. Postal Inspection Service, and Internal Revenue Service-Criminal Investigations in
                                     Washington, DC are conducting this joint investigation. Homeland Security Investigations’
                                     Special Agents in El Paso and Mexico are assisting Ex-Im Bank OIG agents to locate the
                                     fugitives through liaison efforts with Mexican law enforcement authorities.



                                     Other Investigative Results
                                     Special agents work collaboratively with Ex-lm Bank to help protect funds at risk
                                     To the extent permissible, and within the confines and limitations of an investigation, OI
                                     special agents work collaboratively to share investigative intelligence with the Office of
                                     General Counsel, Credit and Risk Management Division, and Asset Management Division of
                                     Ex-Im Bank to help identify potential and suspected fraudulent activity within Ex-Im Bank
                                     transactions and to protect funds at risk.


                                     During this reporting period, OI communications with Ex-Im Bank management enhanced
                                     the monitoring of several existing transactions and due diligence reviews of proposed
                                     transactions based on developed investigative leads.




50   Office of Inspector General | Export-Import Bank of the United States
   •    OI coordination with Department of Justice and Ex-Im Bank helped to facilitate four
        administrative actions resulting in the direct repayment and collection of outstanding
        debt by responsible parties in amounts totaling $1,100,000. In one of these adminis-
        trative actions, the defendant agreed to make repayments to Ex-Im Bank. During this
        period, the defendant made two separate payments totaling $700,000 in order to pay
        down his debt.
   •    Investigative intelligence was shared with the Office of General Counsel regarding a
        subject engaged in ongoing criminal activity being investigated by both the OIG and
        other law enforcement agencies. The investigation found the subject had obtained an
        Ex-Im Bank Short-Term insurance policy the previous year and was in the process of
        renewing the policy for a credit limit of $400,000. As a result of shared intelligence,
        the subject’s policy was amended to remove any approved buyers and then was
        subsequently canceled by Ex-Im Bank to protect funds at risk.
   •    Information of criminal activity was provided to the Office of General Counsel resulting
        in the proposed debarment of the subject. As a result, the subject signed a Voluntary                 45 fraud,
        Exclusion Agreement on behalf of himself and his company, effectively excluding                       risk referrals
        himself from participation in all covered transactions with the U.S. government for a                 OI made 45 referrals of

        period of 10 years.                                                                                   investigative information
                                                                                                              concerning potential fraud and
                                                                                                              funds at risk for enhanced due
Additionally, during this reporting period, OI made 45 referrals of investigative information
                                                                                                              diligence by Ex-Im Bank.
to Ex-Im Bank Office of General Counsel concerning potential fraud and funds at risk for
enhanced due diligence by Ex-Im Bank.


These efforts are part of the OI objective to expeditiously protect funds at risk concurrent in
monitoring, oversight, and collection efforts involving transactions in which fraud is uncovered.


Investigative capabilities are strengthened by Memorandums
of Understanding & other law enforcement partnerships
During this reporting period, the OI further strengthened its investigative capabilities and
investigative support by entering into a Memorandum of Understanding (MOU) with the
International Criminal Police Organization (INTERPOL), an intergovernmental organization,
facilitating international police cooperation. INTERPOL Washington is a component of the U.S.
Department of Justice and serves as the United States’ representative to INTERPOL. The MOU
allows the OI Investigative Analyst to serve on temporary detail to INTERPOL Washington on
behalf of the OIG in order to coordinate international law enforcement matters and provide
logistical and analytical support to these types of Ex-Im Bank international trade finance
fraud investigations. The MOU allows for operational and field support during investigations
worldwide through access to international criminal intelligence. This MOU will help OI
effectively utilize available information and evidence to produce investigative results.




                                                                     Office of Inspector General | Export-Import Bank of the United States     51
                  Office of Investigations


                                     Outreach—OIG continues efforts to educate the export community
                                     on identifying & reporting fraud, waste, & abuse
                                     As part of the OIG’s mission to prevent and detect fraudulent activity, efforts have been
                                     made to meet with and educate stakeholders and other law enforcement partners about
                                     the various risks and fraud scenarios most commonly seen in trade finance and export
                                     credit fraud cases.


                                     On January 15, and again on March 28, 2013, OI representatives met with several senior
                                     vice presidents, senior staff, and analysts from the Financial Intelligence Unit and Anti-
                                     Money Laundering Monitoring team of HSBC North America Holdings Inc., New York. OI
                                     discussed common fraud scenarios and money laundering patterns often seen in trade
                                     finance fraud investigations and provided information regarding the role and responsibility
                                     of the OIG in combatting fraud, waste, and abuse. The presentation was well received and
                                     arrangements were made to prepare and present a similar presentation during the next
                                     quarter for other HSBC staff involved in financial intelligence.


                                     On February 7, 2013, an OI representative worked with officials from the International
                                     Factoring Association (IFA) to plan and prepare for an upcoming training seminar on trade
                                     finance fraud schemes in factoring transactions. Factoring is a means of business financing
                                     to secure working capital using a business’ accounts receivable as collateral. IFA’s goal
                                     is to assist the factoring community by providing information, training, and purchasing
                                     power and to serve as a resource for the factoring community. OI investigations often
                                     find evidence of ongoing factoring fraud committed by subjects who are concurrently
                                     defrauding Ex-Im Bank.


                                     Additionally, during this period, OI met with several representatives from the GAO in order
                                     to discuss fraud risks and various fraud scenarios often seen and investigated by the OIG.
                                     The purpose of the meeting was to discuss the structure, organization, and authority of
                                     the OI investigative team and to outline some of the various fraud risks associated with
                                     Ex-Im Bank programs.




52   Office of Inspector General | Export-Import Bank of the United States
Hotline activity
The Ex-Im Bank OIG maintains a hotline to receive reports of fraud, waste, and abuse in
Ex-Im Bank programs and operations. Hotline reports are evaluated by our investigative
team and, based on the available evidence, may result in the initiation of an investigation,
audit, referral to other law enforcement authorities having jurisdiction, or referral to
management for administrative action.


The OIG received five hotline reports during the reporting period. Three were referred for
investigation, one was referred to an office outside the OIG for resolution, and one was
resolved and closed by the hotline.


Hotline reports can be made by any of the following methods:
   •    phone at 1-888-OIG-EXIM (1-888-644-3946)
   •    email to IGhotline@exim.gov
   •    mail o
              r delivery service to
             Ex-Im Bank OIG Hotline
             Office of Inspector General
             811 Vermont Ave. NW
             Washington, DC 20571


The OIG will not disclose the identity of a person making a report through the hotline
without their consent unless the IG determines such disclosure is unavoidable during the
course of an investigation.




                                                                   Office of Inspector General | Export-Import Bank of the United States   53
Appendix A
Recommendations
from prior reporting periods
This table shows that 45 of 58 recommendations from six audit, inspection, and evaluation
reports remain open at the end of the reporting period. Fourteen are from three reports
issued during the last period. The oldest is from FY 2010.


                                                  Recommendations
                                                                        Latest target
 Report Date Report Title                  Total Open Closed Unresolved closure date
 Last Period
 Audits
 OIG-            Audit of Export-Import    10      2         4            4             1/31/13
 AR-12-05        Bank’s Short-Term
                 Insurance Program
 OIG-            Audit of Export-Import     6      1         5            0            2/28/13
 AR-12-06        Bank’s Purchase
                 Card Program
 Inspections and Evaluations
 OIG-            Report on Portfolio        7      4         0            3            9/30/13
 INS-12/02       Risk and Loss Reserve
                 Allocation Policies
 Prior Periods
 Audits
 OIG-            Audit of Information       11     7         4            0             1/31/13
 AR-12-04        Technology Support
                 for Export-Import
                 Bank’s Mission
 Inspections and Evaluations
 OIG-            Report on Performance      8      8         0            0            9/30/13
 INS-12-01       Metrics for Operational
                 Efficiency and Customer
                 Service, Phase 1
 OIG-            Evaluation Reporting      16      16        0            0             None
 EV-10-03        Relating to Economic                                                  provided
                 Impact Procedures
                                  Totals   58      38        13           7




                                                                  Office of Inspector General | Export-Import Bank of the United States   55
Appendix B
Peer review reporting
This appendix complies with Section 5(a)(14)-(16) of the IG Act of 1978, as amended.



Of the audit function
Under government standards, OIG audit functions must have an external peer review at
least every three years. The next peer review of OIG audit functions will be in 2014.



Of the investigation function
As of July 2011, Ex-Im Bank OIG derives its law enforcement authority from Section 6(e) of
the IG Act of 1978, as amended. As such, the OIG is required to undergo an external peer
review process of our investigative function every three years. The peer review is scheduled
for summer 2014.



Of other OIGs
The Ex-Im Bank OIG did not conduct a peer review of any other OIG during this reporting
period. It has scheduled a peer review of the audit function of the Consumer Product Safety
Commission OIG for fall 2013. Also scheduled is a peer review of the investigation function
of the Office of Personnel Management OIG for the end of 2014.




                                                                Office of Inspector General | Export-Import Bank of the United States   57
Appendix C
Abbreviations and acronyms
Acronym      Definition
APP          Annual Performance Plan
CIGIE        Council of Inspectors General on Integrity and Efficiency
ECA          Export Credit Agency
EX-IM BANK   Export-Import Bank of the United States
FISMA        Federal Information Security Management Act of 2002
FY           Fiscal Year
GAO          U.S. Government Accountability Office
GPRA         Government Performance and Results Act of 1993
             and GPRA Modernization Act of 2010
IDA          Individual Delegated Authority
IFA          International Factoring Association
IG           Inspector General
INTERPOL     International Criminal Police Organization
IPA          Independent Public Accountant
IPERA        Improper Payments Elimination and Recovery Act of 2010
IPIA         Improper Payment Information Act of 2002
IT           Information Technology
LGD          Loss Given Default
MOU          Memorandum of Understanding
OA           Office of Audits, Office of Inspector General, Export-Import Bank
OCFO         Office of the Chief Financial Officer, Export-Import Bank
OI           Office of Investigations, Office of Inspector General, Export-Import Bank
OIE          Office of Inspections and Evaluations, Office of Inspector General,
             Export-Import Bank
OIG          Office of Inspector General
OMB          Office of Management and Budget, The White House
PD           Probability of Default
WPEA         Whistleblower Protection Act of 2012




                                                            Office of Inspector General | Export-Import Bank of the United States   59
Appendix D
Inspector General Act
reporting requirements
 Inspector General                    Requirement definition                           Page
Section 4(a)(2)      Review of Legislation and Regulations                                9
Section 5(a)(1)      Significant Problems, Abuses, and Deficiencies                    13–17
Section 5(a)(2)      Recommendations for Corrective Actions                           20–26
Section 5(a)(3)      Prior Significant Audit Recommendations                             55
                     Yet to Be Implemented
Section 5(a)(4)      Matters Referred to Prosecutive Authorities                         43
Sections 5(a)(5)     Summary of Refusals to Provide Information                        None
and 6(b)(2)
Section 5(a)(6)      Audit Products Issued Including Total Dollar Values               None
                     of Questioned Costs, Unsupported Costs, and
                     Recommendations that Funds Be Put to Better use
Section 5(a)(7)      Summary of Particularly Significant Reports                      20–26
Section 5(a)(8)      Total Number of Reports and Total Dollar Value                    None
                     for Audits with Questioned Costs
Section 5(a)(9)      Total Number of Reports and Total Dollar Value                    None
                     for Audits with Recommendations that Funds
                     Be Put to Better Use
Section 5(a)(10)     Summary of Prior Audit Products for which                           35
                     No Management Decision Has Been Made
Section 5(a)(11)     Description and Explanation of Significant Revised                None
                     Management Decisions
Section 5(a)(12)     Significant Management Decisions with                             None
                     which the Inspector General Disagreed
Section 5(a)(13)     Reporting in Accordance with Section 5(b)                         None
                     of the Federal Financial Management Improvement
                     Act of 1996 Remediation Plan
Sections 5(a)(14),   Peer Reviews Conducted and Outstanding                              57
(15) and (16)        Recommendations




                                                             Office of Inspector General | Export-Import Bank of the United States   61
Appendix E
Florida business paper notes impact of Ex-Im Bank OIG
                                                                                   |                           |

                                                                                                                       march 13, 2013




     DAILY BUSINESS REVIEW
   capItal sourcEs

   Export-Import Bank risk-protection access harder
   for small firms
   by Mike Seemuth               this year in either Miami
                                 or Orlando, takes extra
     Export-Import Bank, a       precautions in dealing
   U.S. government agency        with     South      Florida
   that    insures     against   companies, said Ariens,
   export risks, has trimmed     who is based in Baltimore.
   its exposure to companies       “If I have a South
   in South Florida and their    Florida application, I
   foreign customers despite     do a few more checks
   overall growth in the         than for an application
   area’s international trade.   out of New England, for
     Possible reasons for        example,” he said. “In
   the pullback include          South Florida, you can
   tougher     qualifications    see in the statistics there
                                                                                                                    J. Albert DiAz
   for Export-Import Bank        is a higher propensity for
   protection as well as         fraud than other places.”     Antonio Gonzalez of Tire Group International in Miami says Ex-Im
   intensified prosecution         Export-Import       Bank    Bank protection has allowed him to do business in 45 countries.
   of people who defraud         insured $417 million of
   the federal agency and        loans to support export
   increased     competition     sales by companies in         International in Miami, a         based Huntington National
   from foreign insurers of      South Florida in the year     wholesale distributor of          Bank, BAC Florida Bank
   export financing.             ended Sept. 30, down 18       tires to buyers in more           in Miami and Mercantil
     “Florida is a very          percent from $493 million     than 45 countries —               Commercebank           in
   interesting area because      the year before. Since Oct.   including a few buyers            Coral Gables.
   of the growth potential       1, the federal agency has     the company would have
   you see there, but            insured $63 million of        avoided without Export-           Under ScrUtiny
   we also see Florida           loans to support export       Import Bank protection.             “In     places     where
   as a place where we           sales from South Florida.       Export-Import       Bank        you’re not familiar with
   need to be careful,”            The federal agency          coverage cuts default risk        the clientele and you’re
   said Richard Ariens,          known        as      Ex-Im    on bank loans that foreign        wetting your feet, it’s
   president of the U.S.         Bank, for short, is a         customers use to finance          great,” Antonio Gonzalez,
   operations of Atradius,       valuable financial ally of    purchases from the 21-year-       the tire company’s co-
   a private Dutch insurer       companies that export         old Tire Group, which has         founder, chairman and
   that competes with the        U.S.-made products to         annual revenue in excess of       chief executive officer,
   Export-Import Bank.           unfamiliar      customers     $130 million. The company         said of Export-Import
     Atradius, which plans to    in foreign markets. One       arranges customer financing       Bank protection. “In every
   open a Florida office later   beneficiary is Tire Group     through Columbus, Ohio-           country, there’s an account




                                                                     Office of Inspector General | Export-Import Bank of the United States   63
                  Appendix E




               or two we otherwise                        to ensure they can repay                      from a lender before his                      based exporter is really
               wouldn’t take the risk on,                 their loans but also started                  company defaulted on                          overwhelming,” he said.
               we wouldn’t finance at                     looking more carefully at                     the loan, forcing Export-                     “Everybody pays for
               all. This has allowed us to                the financial capacity of                     Import Bank to pay a                          some bad apples.”
               take that risk.”                           the exporters themselves.                     lender’s claim.                                 Export-Import        Bank
                 Agribusiness distributors                  Lopez     said    Export-                      “Pinzon’s    sentencing                    pre-screening efforts are
               Bunge and Cargill are among                Import Bank sometimes                         is part of an ongoing                         “not just focusing on the
               the    largest    companies                will issue an “enhanced                       OIG investigation into                        buyers anymore,” Prieto
               exporting from South Florida               endorsement” along with                       a network of export                           said. “The due diligence
               with backing from Export-                  a commitment to insure                        credit insurance fraud                        falls equally on the
               Import Bank. Other types of                loans to foreign customers,                   schemes involving exports                     exporter and overseas
               companies that commonly                    and the endorsement often                     into    South America,”                       buyer.” In        particular,
               benefit from bank protection               induces a bank to provide                     the office said in the                        Export-Import Bank has
               include exporters of plastics,             export financing. But for                     Feb. 14 statement. The                        tightened its review of
               paper and recycled metal,                  big-ticket exporters of                       investigation so far has                      U.S. equipment exporters
               said William Schenck,                      equipment and agricultural                    led to “criminal charges                      “and more so with used
               Miami-based regional vice                  products, “procuring that                     against six defendants,                       equipment,” he said. “If I
               president, global banking,                 endorsement has become                        four    convictions     and                   come across an exporter
               at Wells Fargo. For loans                  more difficult now,” he                       more than $13.5 million                       in Florida that is exporting
               with Export-Import Bank                    said. “They want to make                      of court-ordered criminal                     used equipment, I just
                                                          sure that the exporter has                    fines and restitution.”                       walk away because I
                                                          some resources in case Ex-                       Luis E. Prieto, a                          know that deal is going to
                                                          Im has recourse to you and                    director     of     Export                    be almost impossible to
                                                          needs to come after you.”                     Import Credit Corp., a                        get through.”
                                                                                                        trade finance consulting
                                                                                                        firm in Miami, said
                                                          FoUr convictionS                              criminals have made
                                                             Export-Import      Bank                    life harder for legitimate
                                                          has been going after                          users of Export-Import
                                                          abusers of its programs                       Bank programs.
                                                          more intensively since the                       “There has been a lot
                                                          2007 startup of its Office                    of fraud with exporters in
                                                          of Inspector General.                         South Florida, and so the
                                                          The office’s website is                       due diligence required
                                                          flush with announcements                      to work with a Florida-
                          Schenck                         of prison sentences for
                                                          South Floridians caught
               coverage, Schenck said,                    defrauding the bank.
               “Most of the companies we                     Last month, for example,                          Loans with Export-Import Bank protection to
               work with are $20 million in               U.S. District Judge Marcia                           finance exports by Florida companies
               [annual] revenue or larger.”               G. Cooke sentenced Miami
                 Smaller operators may                    tile company owner Diego                             Fiscal year                     Florida              South Florida
               find Export-Import Bank                    Pinzon-Villamil to a year
               access more difficult to                   of house arrest plus                                 2012                                 $583                           $417
               obtain than in recent                      $141,000 restitution for                             2011                                 $645                           $493
               years. Richard H. Lopez,                   his role in a scheme to
               managing principal of                      defraud      Export-Import                           2010                                 $500                           $367
               Drake Finance Group,                       Bank.A statement from the
               a trade finance firm in                    inspector general’s office                           Dollars in millions
               Miami, said Export-Import                  said he admitted faking
               Bank not only screens                      export sales to obtain                                                              Source: U.S. Export-Import Bank
               foreign buyers of exports                  receivables       financing


                     reprinted with permission from the 3/13/13 edition of the DAilY bUSiNeSS reVieW © 2013 AlM Media Properties, llC. All rights reserved. Further duplication without
                                              permission is prohibited. Contact: 877-257-3382 reprints@alm.com or visit www.almreprints.com. # 100-04-13-05




64   Office of Inspector General | Export-Import Bank of the United States
How to report fraud, waste and abuse
The Inspector General Act of 1978 states that the Inspector General (IG) may receive
and investigate complaints or information concerning the possible existence of an activity
constituting a violation of law, rules, or regulations, or mismanagement, gross waste of
funds, abuse of authority or a substantial and specific danger to the public health and
safety. Whether reporting allegations via telephone, mail, or in person, the OIG will not
disclose the identity of persons making a report without their consent unless the IG
determines such disclosure is unavoidable during the course of the investigation. You
may submit your complaint or information by these methods:


In person
  Office of Inspector General
  Export-Import Bank of the U.S.
  811 Vermont Avenue, NW
  Washington, D.C. 20571


Telephone
  1- 888-OIG-EXIM
  (1-888-644-3946)


Mail
  Ex-Im Hotline
  Office of Inspector General
  Export-Import Bank of the U.S.
  811 Vermont Avenue, NW
  Washington, D.C. 20571


E-mail
  IGhotline@exim.gov




                                                                                             3
OFFICE OF INSPECTOR GENERAL
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, D.C. 20571


Telephone 202.565.3908
Facsimile 202.565.3988


www.exim.gov/oig
Ex-Im Bank Management Response

Thank you for providing the Export-Import Bank of the United States ("Ex-Im Bank")
Management with the Office of the Inspector General's (OIG) Semi-Annual Report to Congress
covering the period from October 1, 2012 to March 31, 2013. This letter constitutes
Management's response to the Report. Management continues to support the OIG's work,
particularly in prosecuting and preventing fraud against Ex-Im Bank, as well as a number of OIG
audits that are helpful to the Bank's efforts to c.ontinually improve its processes. Ex-Im Bank is
proud of the strong partnership maintained with the OIG and appreciates the OIG's cooperative
relationship.

While we appreciate and concur with much of the OIG's observations, we disagree with several
of the Report's characterizations particularly related to 1) a non-cash accrual issue identified by
Ex-Im Bank's management last year and shared with auditors and 2) several issues that are in
the section of your report entitled "Management Challenges." Below we have set forth these
clarifications to the OIG Report, and provided additional information.

1. Non-cash accrual issue

Page 3 of the OIG Report discusses a non-cash accrual issue, that is better clarified later in the
OIG's Report on page 14. The description of the issue on page 3 of the OIG's Report does not
mention that the non-accrual issue was first identified and resolved internally by Ex-Im Bank's
Management, and then brought to the attention of an independent public accountant (IP A), which
conducted an audit of Ex-Im Bank's financial statements for FY 12. The IP A's audit report also
makes this clear, stating:

"Management identified an instance where a rescheduled loan, though written off in 2005, was
accruing interest income. Management extended its review and performed a detailed analysis to
check if there were other similar instances where interest income was accruing on written-off
loans. There was no other instance noted by management. 'Accrual' status and the interest
income for the above identified loan were corrected by management in the current year."

We note and appreciate that the OIG Report later (on page 14) states that this issue was
identified by Ex-Im Bank management, that the accrual status of the loan occurred during a
system migration in a previous year, that no other instances were found, and that management
corrected the accrual status and interest income for that loan.



The new financial system Ex-Im Bank is putting in place will also prevent this issue from
occurring in the future.


2. "Management Challenges"


       A. Human Capital

For the last five fiscal years, Ex-Im Bank has experienced tremendous growth in authorizations
from $14.4B in FY 2008 to $35.8B in FY 2012 in order to meet the demand in the market. To
keep pace with this growth, Ex-Im Bank has reallocated positions to underwriting, asset
management, and compliance positions and has increased the complement to effectively manage
the added responsibility. In FY 2008, Ex-Im Bank had 359 total full-time equivalent (FTE)
employees and at the end of FY 2012, Ex-Im Bank had 406 FTEs. The majority of the new FTEs
have been allocated to underwriting, asset management, and legal counsel, as well as to small
business consistent with the Bank's priority on reaching more small businesses.


The Bank systematically reviews its resource allocation needs to ensure that it is appropriately
staffed to support the current and projected workload requirements. The Bank will also review
and analyze operational risk issues consistent with the GAO recommendations set forth in their
report from May 2013. Ex-Im Bank requested additional resources in the FY 12 and FY 13
budgets; however these requests were not approved by Congress despite the fact that Ex-Im
Bank generated more than a billion in excess revenue for the taxpayers during that time frame. It
should be noted that Ex-Im Bank has made significant modifications to its workforce to address
the issues raised by OIG and GAO, while still working within the constrained budget.

       B. Information Technology (IT) Management

Ex-Im Bank is currently working on designing and developing a new comprehensive IT
infrastructure to improve its operations. As we stated in our November 30, 2012 comments to
the OIG Semi-Annual Report to Congress covering the prior period, April 1, 2012 to September
30, 2012, Congress had for the first time in recent history provided Ex-Im Bank with resources to
begin modernizing its IT system, including the financial management system. In addition, the
Bank's Total Enterprise Modernization (TEM) is being implemented and projects are underway
to modernize the Bank's IT systems and business processes. These are long-term projects that
cannot be completed within the six month increments of the OIG Semi-Annual Rep01i to
Congress, but it should be noted that with these new resources we are continually improving our
IT infrastructure with a goal of full implementation by September of 2015.

       C. Risk Management

GAO recently published its Risk Management Report to Congress titled Recent Growth
Underscores Need for Continued Improvements in Risk Management, GA0-13-303 (March
2013). The GAO Report acknowledges that Ex-Im Bank has made improvements to its risk
management and has started to address recommendations by the OIG about portfolio stress
testing, thresholds for managing portfolio concentrations, and risk governance. The GAO Report
notes that Ex-Im Bank has been developing a more comprehensive risk-management framework.
Ex-Im will continue to address and improve its risk management and agreed to all
recommendations made by GAO.

As acknowledged in the OIG report, Ex-Im Bank has started to include qualitative data in its loss
reserve and risk management analyses.

       D. Customer Service

Beginning in late 2012, with the hiring of the agency's first Vice President of Customer
Experience, Ex-Im Bank embarked on a holistic approach to embedding customer experience
best practices from the private and public sectors into its day-to-day operations . .The Vice
President of Customer Experience has met with dozens of Ex-Im Bank customets and has
conducted focus group listening sessions as recently as our April Annual Conference.
Specifically with respect to surveys, in 2013, Ex-Im Bank contracted with Pacific Consulting
Group, the same contractor that previously worked for the OIG to produce your report OIG-INS­
12-03. Pacific Consulting Group (PCG) will develop and administer a survey of 150 Ex-Im Bank
brokers to measure the extent to which brokers believe they have the tools, training, and the
materials needed to go to market with Ex-Im Bank products. Brokers represent a vital link to
engaging small business and therefore are a key pathway to advancing Ex-Im Bank's small
business mandate. The survey will gather quantitative and qualitative data. Survey results are
due from PCG in June 2013. Moving forward, on an annual basis, Ex-Im Bank plans to target an
appropriate customer segment for formal surveying. Survey targets will be chosen based on Ex­
Im Bank's strategic plan, congressional mandates, and financial resources available.

President Obama's April 27, 2011 Executive Order 13571 requests, but does not require,
independent federal agencies to develop customer service plans. Although not required to have a
customer service plan, Ex-Im Bank continues to focus on improving the experience for Ex-Im
customers. Since the order, we have reduced application processing times to the point where 85
percent of applications are approved within 30 days and 97 percent are approved within 100
days.

       E. Credit Underwriting and Due Diligence Practices

We agree with the OIG that it is vital that Ex-Im Bank continues to improve its credit
underwriting and due diligence practices. Ex-Im Bank has robust underwriting and due diligence
procedures in place and strives to always improve in these areas to best protect against loss and
fraud.

       F. Corporate Governance, Business Practices, and Internal Control Policies and
Practices

Ex-Im Bank completed its extensive review and revision of the Ex-Im Bank Loan, Guarantee &
Insurance Manual during FY 13. This comprehensive Manual establishes the Bank's business
processes and internal control policies and has been implemented by the Bank.

Ex-Im Bank has received positive feedback from GAO as a result of audits of the Bank's
Business Plan, Risk Management, and Jobs Calculations. Ex-Im Bank has agreed to implement
all of the GAO recommendations made in their reports.

       G. Renewable Energy Products and Clean Energy Export Opportunities

We are pleased that the OIG has acknowledged Ex-Im Bank proactive approach in developing
renewable energy products in an effort to meet the renewable energy mandate Congress placed in
our appropriations bill. We believe it is also important to note that a 2010 Department of
Commerce report, Renewable Energy and Energy Efficiency Export Initiative, estimated the
value of all U.S. renewable energy exports at $2 billion in 2009. Thus, if Ex-Im Bank had
financed 100 percent of U.S. renewable energy exports that year, it still could not have met its
renewable energy target. While market demand continues to. be a challenge to the Bank in
meeting the renewable energy mandate, Ex-Im Bank still looks to develop new strategies and
products to support that export market. The GAO Report on Ex-Im Bank Business Plan, GA0­
13-620, also acknowledges market demand may constrain Ex-Im Bank ability to meet this
mandate.

       H. Small Business Participation

Ex-Im Bank is committed to reaching the 20 percent mandated target for small business exports
and has also been very proactive in its efforts to enhance support from the small business export
market. We are proud of the fact that small business financing has grown approximately 90%
from $3.2 billion in FY 08 to a record $6.1 billion in FY 12. The GAO Report on Ex-Im Bank's
Business Plan, GA0-13-620, points out several ways that Ex-Im Bank has been working to reach
its small business mandate, including, recently opening four new regional offices to support
small business exporters, launching new business products for the small business market, adding
staff to the small business division, series of small business seminars and webinars to assist
exporters, and dedicated IT resources. Ex-Im Bank requested additional resources to support
small business efforts in the FY 12 and FY 13 budgets; however these requests were not
approved by Congress despite earning more than $1 billion in excess revenue for the taxpayers.

Once again, we thank the OIG for your efforts to ensure Ex-Im Bank policies and procedures
continue to improve, as well as the work you do to protect Ex-Im Bank funds from fraud, waste,
and abuse. We look forward to continuing to work closely with the Office of the Inspector
General.
